<html>
<title> - CONTINUED OVERSIGHT OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S GEOSTATIONARY WEATHER SATELLITE SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  CONTINUED OVERSIGHT OF THE NATIONAL
                OCEANIC AND ATMOSPHERIC ADMINISTRATION'S
                 GEOSTATIONARY WEATHER SATELLITE SYSTEM

=======================================================================


                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

                           Serial No. 111-19

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
48-734                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001 


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                 HON. BRIAN BAIRD, Washington, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            JAMES PAUL Democratic Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant

                            C O N T E N T S

                             April 23, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

                               Witnesses:

Mr. David A. Powner, Director, Information Technology Management 
  Issues, U.S. Government Accountability Office
    Oral Statement...............................................    12
    Written Statement............................................    15
    Biography....................................................    21

Ms. Mary E. Kicza, Assistant Administrator for Satellite and 
  Information Services, National Environmental Satellite, Data, 
  and Information Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    26

Mr. George W. Morrow, Jr., Director, Flight Projects, Goddard 
  Space Flight Center, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    31

Discussion
  Budget Overruns................................................    32
  Program Expectations...........................................    35
  Incorporating Recommendations and Preventing Future Problems...    37
  The Need for Better Cost Estimates.............................    38
  Meeting Budgets and Deadlines..................................    41
  The Partnership of NASA and NOAA...............................    42
  Program Funding................................................    43
  Complying With Recommendations and the Responsibilities of NOAA 
    and NASA.....................................................    44
  The Role of Congress...........................................    45
  Benefits of GOES-R.............................................    46
  Closing........................................................    47

              Appendix: Answers to Post-Hearing Questions

Ms. Mary E. Kicza, Assistant Administrator for Satellite and 
  Information Services, National Environmental Satellite, Data, 
  and Information Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    50

Mr. George W. Morrow, Jr., Director, Flight Projects, Goddard 
  Space Flight Center, National Aeronautics and Space 
  Administration (NASA)..........................................    56


      CONTINUED OVERSIGHT OF THE NATIONAL OCEANIC AND ATMOSPHERIC 
        ADMINISTRATION'S GEOSTATIONARY WEATHER SATELLITE SYSTEM

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Continued Oversight of the National

                Oceanic and Atmospheric Administration's

                 Geostationary Weather Satellite System

                        thursday, april 23, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Government Accountability Office (GAO), at the request of the 
Committee, has submitted its latest report on the progress of the new 
GOES-R series of geostationary weather satellites being developed by 
the National Oceanic and Atmospheric Administration (NOAA). On April 
23, 2009, the Subcommittee on Energy and Environment will take 
testimony from GAO, NOAA and the National Aeronautics and Space 
Administration (NASA) on the status of the program and the GAO's 
findings and recommendations.

Witnesses

Mr. David Powner, Director, Information Technology Management Issues, 
Government Accountability Office

    Mr. Powner is the head of the GAO team that has supported the 
Subcommittee's oversight of NOAA's major satellite programs for the 
past five years. He will discuss the findings and recommendations on 
NOAA's management of the GOES-R satellite program in the report it will 
release at the hearing.

Ms. Mary Ellen Kicza, Assistant Administrator for Satellite and 
Information Services, NOAA

    Ms. Kicza leads the National Environmental Satellite, Data, and 
Information Systems (NESDIS) at NOAA, operating the geostationary 
weather satellites and leading the development of the new GOES-R 
series. A former NASA official, Ms. Kicza assumed responsibility for 
NOAA satellite development in November 2006. She will describe the 
current status of the GOES-R program and give NOAA's response to the 
GAO report.

Mr. George Morrow, Director of Flight Projects Directorate, Goddard 
Space Flight Center, National Aeronautics and Space Administration

    Mr. Morrow's office is currently managing the development or 
implementation of 40 space and Earth science missions at Goddard. 
Before a short stint in the private sector, he oversaw technical 
management of the Hubble Space Telescope and served as Project Manager 
for the Aqua satellite. Morrow has held his current position since 
September 2007.

Background

Western Hemisphere Weather Sentinels
    NOAA depends on its GOES satellites to detect and track weather 
systems affecting the Western Hemisphere. The satellites hold position 
in geosynchronous orbit (22,300 miles above the Earth) where their 
speed matches the Earth's rotational velocity. The Severe Storm Center 
uses GOES to track tornadoes, hailstorms and other weather events 
threatening life and property over land. For the Hurricane Center, GOES 
shows developing storms in the areas of the oceans where there are no 
other observational sensors.
    A prototype satellite was launched in 1974; the first GOES 
satellite went into orbit in 1975. Today, normal practice has two GOES 
satellites in orbit simultaneously, with one focused on each of the 
U.S. coasts (GOES-11 and GOES-12). A third (GOES-13) is also kept in 
space as a spare to assure uninterrupted coverage.

GOES--The Recent Chronicle
    The current GOES-R development program is the third major 
procurement for GOES satellites since NOAA assumed responsibility for 
funding its own geostationary operational satellites in 1982. In the 
previous instances, NOAA purchased five GOES-Next satellites in the 
period from 1985-2001, and then contracted for four GOES-N satellites 
for the years 1998-2001. The first GOES-N model launched in May 2006 to 
be the on-orbit spare,\1\ GOES-O is awaiting launch next month and 
GOES-P has been completed and is in storage. GOES-Q was canceled in 
2002 because the existing satellites were performing well past their 
expected lifetimes.
---------------------------------------------------------------------------
    \1\ While on the ground, GOES satellites have a letter designation 
based on the order in which they were built. After launch, checkout and 
acceptance testing in orbit, it is changed to a number. Therefore, 
GOES-N is now identified as GOES-13.
---------------------------------------------------------------------------
    In the original plan for the GOES-R program NOAA intended to spend 
$6.2 billion for the life cycle period 2007-2020. This would purchase 
four satellites. It would also fund development of two new major 
instruments, the Advanced Baseline Imager (ABI) and the Hyperspectral 
Environmental Suite (HES), as well as upgraded models of the space 
weather sensors. The first satellite would be launched in 2012.
    The Committee became concerned about the progress of the GOES 
program when NOAA's other satellite development effort, the National 
Polar-Orbiting Operational Environmental Satellite System (NPOESS), was 
forced to undergo a Nunn-McCurdy recertification. The GAO team studying 
NPOESS was asked to determine if GOES was proceeding down a similar 
path. By September 2006, as GAO made its first report, there were 
important changes announced. Estimated cost grew to $11.4 billion. NOAA 
reacted by eliminating two satellites and the HES instrument, and 
pushing first launch back to December 2014. The President's FY 2008 
budget request now listed the life cycle cost estimate reflected in the 
President's FY 2008 budget request as $6.96 billion for the years 2003-
2028.
    The Subcommittee heard from NOAA at its hearing in October 2007 
that an independent review team (IRT) felt changes needed to be made in 
the agency's plan for managing the program. NOAA had intended to assume 
overall responsibility for procurement of the entire satellite system, 
including the spacecraft, instruments, ground systems and integration. 
The IRT questioned NOAA's ability to do this. Instead it recommended 
that NOAA divide the program. NASA would manage the space segment 
(which included the spacecraft bus and launch vehicle) and NOAA would 
do the same for the ground segment (communications, satellite control 
and data management). The IRT argued that this would allow NOAA to 
benefit from the expertise in both agencies. To reflect these changes, 
NOAA and NASA had signed a Memorandum of Understanding in June 2007, 
and would agree on a Management Control Plan in December 2007.
    For the instruments, NASA would manage their development for NOAA 
and provide the finished devices as government equipment to the space 
segment contractor. NASA would also handle the integration of the 
instruments with the spacecraft. ABI was the first contract awarded 
(September 2004), as it was expected to involve numerous technical 
challenges. By the time of the hearing, the three space weather sensors 
had been awarded. Selection of the contractor for the Geostationary 
Lightning Mapper (GLM) followed in December 2007.
    Since that hearing, there have been some additional significant 
changes. In its FY 2009 budget request, NOAA said that launch of GOES-R 
had slipped to April 2015 because the FY 2008 Omnibus Appropriation had 
reduced funding below the level NOAA expected. In the Major Satellite 
Program Annual Report for FY 2009, NOAA provided a new program baseline 
cost estimate of $7.672 billion. The award for the space segment 
contract was made to Lockheed Martin, in December 2008, but work came 
to a halt when Boeing protested the award. Currently, NASA is 
reconsidering the proposals. The ground system Request for Proposals 
was released in May 2008, with NOAA hoping to make an award by June. 
GAO's new report indicates that some of the expected performance 
standards in the ground segment contract have been reduced. Further 
discussion appears below.

GAO's GOES-R Snapshot
    There are two major facets in GAO's new report on GOES-R. GAO 
credits the program with progress in many areas listed as concerns in 
previous reports. Even so, GAO identifies items of risk in program 
controls and management of the instruments where the program continues 
to fall short of best practices.
    Over the course of the GOES-R program, the expected capabilities of 
the satellites have been reduced as the increasing costs of the program 
led to elimination of one major instrument (HES) and other changes in 
scope. The Subcommittee asked GAO to evaluate the effect of these 
changes on NOAA's ability to produce the products expected by its 
users. In the second part of this report, GAO finds that the plan for 
restoring the lost capability is stalled and that GOES-R may fall short 
of user expectations.

I. Continuing Cost Risks

    GAO, in its previous testimony, indicated that the GOES-R program 
office was projecting the life cycle cost for the two-satellite program 
was $6.9 billion, while an independent estimate projected it would 
ultimately be $9.3 billion. By the time the estimates were reconciled, 
GAO believed, there would be an increase in the estimate. This has 
indeed occurred; NOAA completed reconciliation of the two estimates and 
now states the baseline is $7.6 billion--very close to GAO's 
prediction.
    However, in Section 112(f) of the 2008 Consolidated Appropriations 
Act, the Appropriations Committees established a statutory baseline for 
the GOES-R program of $6.96 billion. Thus, there has been a ten percent 
growth in the baseline, half of the growth necessary to trigger a 
report to Congress and a set of reviews leading to an action plan 
responding to the increased costs, a report on alternatives and their 
associated costs and a report on the impact of the cost growth on other 
NOAA programs. In such a situation, NOAA is likely to reduce the 
capabilities of the satellites yet again.
    GAO notes in its report that the primary instrument--the imager--is 
only half-completed after five years, has been showing cost growth ($30 
million) and a delay in some scheduled work. NOAA indicates that this 
can be accommodated by the instrument project, as they had considered 
the contractor's proposal optimistic and so provided an increased 
budget in the program plan. In the three years since GAO first began 
reporting these variances, the cost variance has grown by $24 million 
and the schedule variance by $8 million. These are discouraging trends.
    The ABI has already been re-baselined once for cost and schedule 
(February 2007) and again for schedule in March 2008. Yet GAO's report 
indicates that the ABI integrated baseline review failed to consider 
significant items such as schedule milestones or the contractor's 
management processes. In its first recommendation, GAO urges NOAA to 
add these to future reviews before any subsequent re-baselinings. NOAA 
agreed to do so. Again, GAO raised similar concerns on these program 
control issues three years ago.
    GAO goes on to fault NOAA for lack of documentation regarding the 
cost and schedule variances reported on the imager and the lightning 
mapper. NOAA responded that they were reviewing the variances with the 
contractors, but not recording the information. Of course, the lack of 
information on the decisions resulting from these conversations might 
be crucial in resolving later technical problems. NOAA agreed with 
GAO's second recommendation to be more diligent in documenting 
information on variances.
    GAO lists the ABI as a continuing cost risk, while it considers GLM 
a high schedule risk.

II. The Boeing Protest and Schedule Risk

    On December 2, 2008, the Lockheed Martin proposal won the contract 
for the GOES-R space segment. Following agency debriefings, however, 
the Boeing Company filed a protest with GAO, asserting that they had a 
superior offer. Further action to finalize the contract, as well as 
initial work, was suspended pending GAO's decision. On February 17, 
2009, NASA informed GAO that it had decided to reconsider the proposals 
and GAO dismissed the protest. The source evaluation board has reviewed 
the bids to make a new recommendation, with the intent to issue an 
award next month. Because this continues to be an active procurement, 
NASA and NOAA will sometimes be limited in their responses in order to 
shield ``source selection'' and other proprietary information protected 
by law and regulation. GAO also placed a protective order on 
information related to the protest, and it appears that elements of the 
order remain in force. This may also affect what information the 
agencies may provide.
    However, the Subcommittee's immediate concern is the effect of the 
protest on the GOES-R program schedule. In March 2008, the IRT was 
already concerned that the lack of contracts for the space and ground 
segment ``. . . has impacted potential schedule margins,'' and there 
was a ``[n]eed to move forward without delay to get Flight and Ground 
Segment procurements underway.'' \2\ NOAA noted in June that the 
proposals for both segments had been issued and that the anticipated 
award dates preserved adequate schedule margin, assuming no budget 
problems.\3\ With the protest, however, the current first launch in 
April 2015 now threatens to slip. Should a delay materialize, the risk 
increases that NOAA will violate its current operational requirement 
for a spare satellite in orbit around 2015.
---------------------------------------------------------------------------
    \2\ Geostationary Operational Environmental Satellite Series-R 
(GOES-R) Key Decision Point (KDP) C/D Readiness Report by GOES-R 
Independent Review Team (IRT), March 18, 2008, p. 5.
    \3\ Ibid., p. 20.
---------------------------------------------------------------------------
    The GOES-R program now has to assume that NASA's coming decision on 
the space segment contract will face a new protest. Should the original 
choice of Lockheed Martin be sustained, Boeing can be expected to renew 
its challenge. Changing to Boeing will likely draw complaints from an 
aggrieved Lockheed Martin. Risks of a protest after the ground segment 
contract award may have also increased. This will create more pressure 
on the program.

III. Disappearing Capabilities

    As the GOES-R program has progressed, the improvements users 
expected in its performance have been eroding. The 2006 decision to 
drop the HES sensor to help restrain the projected $5 billion cost 
growth in program estimates, contributed a great deal to the loss of 13 
products (from 81 to 68) GOES-R was expected to produce. It also meant 
that GOES-R would not retain at least the same level of atmospheric 
sounding data now flying on the current satellites.
    The Subcommittee asked GAO to evaluate NOAA's efforts to mitigate 
these losses and to find alternate means to provide the reduced 
capabilities. In this report, GAO describes the initial plan to use the 
ABI--with other data sources--to supply sounding products equivalent to 
the existing capability. This will require some tradeoffs; the ABI 
should produce more data faster, but the readings in four product 
categories will not be as precise as the current instrument.
    Having developed the plan, NOAA briefed the proposal to parts of 
its user community. According to GAO, these users were willing to 
accept the alternative, but this appeared to rest on NOAA's assurance 
that the data would be updated (``refreshed'') much more often than it 
is today. Yet GAO also states that these ``refresh rates'' were among 
the requirements that became optional requests as NOAA readied the 
ground segment Request for Proposal in 2007. NOAA stated that the users 
were informed as this change was made. It is unclear whether users 
understand all the ramifications of the change.
    GAO also notes that NOAA also has reduced the number of products 
now expected from GOES-R by half, to 34. Despite declaring that the 
lost products remain priorities for the agency, GAO reports ``. . . 
NOAA has not defined plans or a timeline for implementing any of the 
options or for addressing the requirements for advanced products. 
Further, agency officials were unable to estimate when they would 
establish plans to fulfill the requirements.'' As a result, the 
report's third recommendation urges NOAA to establish such a plan and 
process. Again, NOAA has agreed with the recommendation.
    NOAA states that planning is underway to prepare some kind of 
improved sounder that could be flown aboard two future satellites, the 
GOES-T and -U satellites. However, these two satellites are not part of 
the current procurement and budgets have not been developed or approved 
for them within the GOES-R program. Preliminary steps to provide 
resources for that development may be included in the FY 2011 budget 
request. This was first offered as an option in April 2007 in the wake 
of HES's cancellation. The competitors for the HES instrument at the 
same time also argued that enough progress had been made to consider 
flying a prototype of the next-generation sounder aboard GOES-S, but 
NOAA declined.
    This situation raises a question: just how well does NOAA work with 
its user communities when setting priorities among the many competing 
requirements that affect design of its satellite instruments? In his 
2006 written statement to the Committee, former Administrator 
Launtenbacher described:

         ``. . . a group consisting of the NOAA users of the satellite 
        data . . .. As we designed the original concept for GOES-R, the 
        user group developed the initial requirements and meets 
        regularly to assess the extent to which the preliminary designs 
        meet the requirements. This group is critical as we move 
        forward with finalizing sensors and the satellite system to 
        ensure GOES-R will meet NOAA's requirements for data and 
        products . . ..'' \4\
---------------------------------------------------------------------------
    \4\ U.S. Congress. House. GAO Report on NOAA's Weather Satellite 
Program. Hearing Before the Committee on Science. 109th Congress; 
Serial 109-66. September 29, 2006; p. 19.

    GAO's discussion of NOAA's user interactions does not appear to be 
referring to this group. Without the continuing contributions of users 
knowledgeable about the evolution of the GOES-R space and ground 
systems, it is possible that the increased investment in GOES-R may 
produce satellites little advanced from current models. GAO hopes to 
examine this in greater detail in its next assignment.
    Chairman Baird. Good morning. Our hearing will come to 
order.
    We are pleased to have everybody here today on a topic 
which we in the Committee think is of tremendous importance to 
the country and we have some outstanding witnesses today to 
give us information on the status of this program. Today we are 
going to meet to receive GAO's latest report on the 
Geostationary Operational Earth Satellite System, so-called 
GOES. From their stations above the equator, the GOES system 
tracks weather across the Western Hemisphere. It is one of two 
major satellite programs now underway at NOAA.
    Development of the satellite and instruments for this 
series, the GOES-R, is a NASA responsibility. The GOES program 
has from the outset depended on cooperation between the two 
agencies, NASA and NOAA. It has not, however, always been a 
happy partnership. The troubles in the polar satellite program 
are a stark warning of the dangers of interagency friction, and 
so the Subcommittee has asked NASA to participate today to 
allow discussion of its critical contribution to the GOES-R 
success.
    While the GOES program has not suffered from the same 
mismanagement and mistakes that have plagued the polar 
satellite replacement program, it has not been a model of 
excellence either. In our previous hearings we have learned 
that the preliminary cost estimates for these satellites had 
doubled and as a result NOAA found it necessary to cut the 
number of satellites to be ordered by half. And so, or even so, 
as GAO forecasted, the program cost has again gone up.
    At the same time, the GOES satellites lost the new 
instrument that would expand our ability to sample atmospheric 
conditions at more levels. NOAA found the technical challenges 
too great given the time and money it had. The Subcommittee 
asked our GAO team to review NOAA's plan for providing these 
lost capabilities, and they report today that ``NOAA has not 
defined plans or a timeline for implementing any of the options 
for addressing the requirements for advanced products.'' I look 
forward to hearing both the GAO and NOAA's testimony on this 
subject.
    Just to put this into context, I asked staff to give me a 
list of some examples of where this satellite data has been 
useful, and wherever you are virtually in the United States of 
America we have examples of that. My own district was hit by 
severe flooding in January of 2009. GOES satellite imagery was 
relied upon heavily. Part of its monitoring of water vapor 
imagery helped predict the amount of rainfall, and it was an 
epic flood. I was in the middle of it and I can tell you we 
lost property and it was a very difficult experience. It 
continues to be so. I was just there last week dealing with the 
aftereffects of the flood.
    The Oklahoma-Texas wildfires of January 2006 and April 
2009--Mr. Inglis will find this interesting as well. Here is a 
GOES picture, a satellite photo from April 21, 2009, showing 
the smoke from the fires in Texas just two days ago now; and 
the Mount Redoubt volcano in Alaska March 2009, GOES satellite 
imagery detected, monitored and tracked volcanic ash eruptions 
critical for a variety of things, even aviation safety as we 
try to understand where planes should or shouldn't fly. 
Hurricane Katrina, we have heard of that. Mr. Jindal might take 
note of this if he wants to attack earmarks in the future, but 
we will just say that GOES satellite image was particularly 
important in helping forecast Katrina. What many people don't 
know is the Katrina forecast was pretty darn good. They hit its 
magnitude, arrival and location very, very precisely. The 
problem was on the ground, people didn't prepare, but you folks 
did your job, those who were involved with this. But all of the 
aforementioned and countless other uses could fall in jeopardy 
if we don't get this right, and that is what today's hearing is 
about. We are afraid we are not going to get it right and we 
want to, we want to get it right, meaning on time, on budget, 
which we are already off, but we don't want more cost overruns 
and we certainly don't want a big gap in reliability, and I 
think there is reason to question whether we are going to 
achieve that goal. But I highlight all these applications, Mr. 
Inglis and my friends on the panel, because I think the 
American people need to understand, this is not small, 
irrelevant, abstract issues that we are dealing with. This is 
something very, very consequential to public health, life, 
safety, economic benefits, et cetera.
    So with that, I will again thank the witnesses and 
recognize Mr. Inglis for his opening remarks.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good morning and welcome. The Subcommittee is meeting today to 
receive GAO's latest report on the Geostationary Operational 
Environmental Satellite system (GOES). From their stations above the 
equator, the GOES system tracks weather across the Western Hemisphere. 
It is one of two major satellite programs now underway at NOAA.
    Development of the satellites and instruments for this series, 
GOES-R is a NASA responsibility. The GOES program has from the outset 
depended on cooperation between the two agencies, NASA and NOAA. It has 
not always been a happy partnership. The troubles in the polar 
satellite program are a stark warning of the dangers of interagency 
friction, and so the Subcommittee has asked NASA to participate today 
to allow discussion of its critical contributions to GOES-R success.
    While the GOES program has not suffered from the same mismanagement 
and mistakes that have plagued the polar satellite replacement program, 
it has not been a model of excellence either. In our previous hearings 
we have learned that the preliminary cost estimate for these satellites 
had doubled and as a result NOAA found it necessary to cut the number 
of satellites to be ordered in half. Even so, as GAO forecasted, the 
program cost has again gone up.
    At the same time, the GOES satellites lost the new instrument that 
would expand our ability to sample atmospheric conditions at more 
levels. NOAA found the technical challenges too great given the time 
and money it had. The Subcommittee asked our GAO team to review NOAA's 
plan for providing those lost capabilities; they report today that ``. 
. . NOAA has not defined plans or a timeline for implementing any of 
the options or for addressing the requirements for advanced products.'' 
I look forward to hearing both GAO and NOAA's testimony on this 
subject.
    I would like to thank our witnesses for their testimony today, and 
I recognize the Ranking Member, Mr. Inglis, for his remarks.

    Mr. Inglis. Thank you, Mr. Chairman. Getting it right is 
very important in this case because it is very important that 
we be able to take these pictures and the potential loss of 
redundancy by not getting these satellites up in time could 
mean that a significant part of our observation goes dark. I 
mean, what if one of them goes out and it is all dark on that 
side of the Earth and we are not able to see the hurricanes 
coming, we are not able to predict weather for commerce. It is 
just a--it is a very important matter, and I am sure that no 
one on this panel wants to be here right now because what a 
disaster have we got in the works.
    So, you know, a year and a half ago we were here having a 
hearing on this. In that hearing, the GAO told us that the 
program was over budget, behind schedule and running the risk 
of discontinuity, and that is the thing I am expressing great 
concern about. Discontinuity here would be a huge practical 
impact. So GAO made some recommendations how to proceed and how 
to avoid further cost overruns while ensuring that the 
technological development stays on schedule.
    And now we are here with a GAO report in hand entitled 
``Acquisition has increased cost, reduced capabilities and 
delayed schedules.'' That is a pretty sorry title. I mean, 
those are all bad things. The price tag is up from $670 million 
since we last met, even though the program has now been down-
sized from 81 products on the satellites to 32. There is still 
the threat of launch delays, and even if we get two new 
satellites in the air, we are now not sure if there will be 
orbit backup, so that means that one mishap with the new 
instruments and we could lose our eyes on half the world or all 
the world.
    So the question for us today is, how do we fix this? I 
thought we were learning about what was wrong here. Now we are 
back in the same spot so I hope we can figure out how to fix it 
from here. Is it a matter of poor management? Should NOAA 
continue to be charged with supervision of this program or does 
Congress need to give the reins to some other agency entirely? 
How are we prioritizing the instruments we put on the 
satellites to make sure we get what we really need on those 
satellites? So those of us responsible for this program, 
Congress, NOAA, NASA, cannot lightly risk delays and cost 
overruns. GOES-R today is a $7.7 billion program for two 
satellites. That is a lot of taxpayer money and we expect that 
investment to provide a series of weather satellites that are 
launched on time and that provide data to ensure the most 
accurate possible weather forecasting and modeling.
    So I look forward to hearing some solutions today and 
hopefully not repeating this a year and a half from now. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning. Thank you, Chairman Baird, for holding this hearing 
about the Geostationary Operational Environmental Satellites-R series 
(GOES-R). This hearing continues close oversight of this vital weather 
satellite program, oversight that started under Republican leadership 
of this committee.
    Exactly one year and a half ago, to the day, this subcommittee held 
a hearing on the GOES-R program. In that hearing, GAO informed us that 
the program was over budget, behind on schedule, and running a risk of 
discontinuity in valuable forecasting data. GAO also made 
recommendations on how to proceed so as to avoid any further cost 
overruns while ensuring that technological development stays on 
schedule.
    Now we're here, with a GAO report in hand entitled, ``Acquisition 
Has Increased Costs, Reduced Capabilities, and Delayed Schedules.'' The 
price tag is up $670 million since we last met, even though the program 
has now been down-sized from eighty one products on the satellites to 
thirty-two. There is still a threat of launch delays, and even if we 
still get two new satellites in the air, we're now not sure if there 
will be an in orbit backup. That means that one mishap with the new 
instruments, and we could lose our forecasting eyes on half the world.
    So the question before us today is: What are we going to do to fix 
this problem? We obviously can't go back, but we can't afford to show 
up a year and half from now only to find that the future of our weather 
forecasting is even more off track. Is this a matter of poor 
management? Should NOAA continue to be charged with supervision over 
this program, or does Congress need to give the reins to another agency 
entirely? And how are we prioritizing the instruments we put on the 
satellite to make sure we get the necessary equipment in place so that 
we don't experience any discontinuity in valuable forecasting data?
    Those of us responsible for this program, Congress, NOAA, and NASA, 
cannot lightly risk delays and cost overruns. GOES-R today is a $7.7 
billion program for two satellites. That is a lot of taxpayer money. We 
expect that investment to provide a series of weather satellites that 
are launched on time and provide data to ensure the most accurate 
possible weather forecasting and modeling.
    I look forward to hearing from our witnesses today and yield back 
the balance of my time.

    Chairman Baird. Thank you, Mr. Inglis. We have been joined 
by Ms. Edwards. Thank you for joining us, Mr. Neugebauer, as 
well. As is the custom of this committee, we will proceed now. 
If any other Members have opening remarks, they may submit them 
for the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the oversight of the NOAA's geostationary weather satellite system.
    Geostationary weather satellite systems are important in 
identifying and anticipating extreme weather conditions before as they 
approach the U.S. My Congressional District in Southern Illinois 
frequently faces extreme weather conditions, including tornadoes and 
ice storms that can destroy property, take out electricity for long 
periods of time, and even take lives. I appreciate the efforts of NOAA 
and NASA to continually update and improve the technology of these 
satellite systems to increase warning times for extreme weather events.
    However, I remain concerned about the continued delays and cost 
increases associated with the GOES-R program. In the face of these 
challenges, NOAA has reduced the capabilities of these satellites and 
delayed their deployment. While I appreciate the efforts of NOAA and 
NASA to adopt the recommendations of the GAO and remain transparent in 
their contracting negotiations, I have concerns about the impact of 
these delays and decreased capacities.
    I would be interested in hearing from our witnesses today what 
impact they see the GAO recommendations and the increasing cost of the 
satellites having on their deployment date and capacity. Specifically, 
if GOES-R will be able to achieve the goals set forth by NOAA, 
including significant improvements in warning time for extreme weather 
and if any further delays are expected leading to a gap in satellite 
coverage?
    I welcome our panel of witnesses, and I look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman.
    The ability to track the Earth's weather and to predict storms is 
of great national importance. Weather satellites make that possible.
    The American public relies on the Geostationary Operational 
Environmental Satellites (GOES) to accomplish this goal.
    These satellites, which rotate around the Earth at a synchronous 
velocity as the that of the Earth, are used to track tornadoes, 
hailstorms and other weather events.
    The National Oceanic and Atmospheric Administration (NOAA) is 
primarily responsible for developing the newest of these satellites, in 
cooperation with the National Aeronautics and Space Administration.
    Today, the Committee will be interested to hear comments on a 
recent report by the Government Accountability Office on the progress 
of the new GOES-R satellites that are in development.
    In summary, the GAO report recommends that the program take steps 
to ``improve management and oversight and determine whether and how to 
recover certain capabilities that were removed from the program.''
    Our witnesses, from GAO, NOAA, and NASA will discuss why the 
project has had continued escalating costs.
    The Subcommittee will also want to know why a major instrument, the 
Hyperspectral Environmental Suite (HES), is planned be eliminated.
    The Hyperspectral Environmental Suite is designed to provide high-
resolution hemispheric observations, large-scale examinations of severe 
weather systems, and imaging of coastal waters.
    It will also provide temperature and moisture measurements and can 
be applied to examine cloud-top information, winds, and ozone.
    The Science Committee has held hearings in the past to assess other 
NOAA/NASA satellite development endeavors.
    It is this committee's responsibility to provide oversight to 
ensure the timely and appropriate development of this project.
    Budget estimates that are substantially larger than first predicted 
and delays in deliverables should be communicated to the Committee and 
our citizens, who provide the funding for these endeavors.
    Mr. Chairman, this project is very important and should be 
supported by the Committee.
    A first-rate weather satellite program will benefit every citizen 
in this nation.
    NOAA weather satellites provide pictures of weather from around the 
United States or the world.
    The data from these satellites are used to measure the temperature 
of the ocean, which is a key indicator of climate change.
    Satellite information is used to monitor coral reefs, harmful algal 
blooms, fires, and volcanic ash.
    Monitoring the Earth from space helps us understand how the Earth 
works and affects much of our daily lives.
    Again, I want to emphasize the importance of this project to the 
American people.
    Also, I would like to welcome today's witnesses.
    We appreciate the work that you are doing and hope that we can 
facilitate a smooth transition to new, high-quality satellites as soon 
as possible.

    Chairman Baird. We will now proceed to hear from the panel. 
You will each be asked to speak for about five minutes and then 
we will follow up with questions. Let me introduce the panel at 
this point. Mr. David Powner is the Director of Information 
Technology Management Issues at the Government Accountability 
Office, Ms. Mary Ellen Kicza is the Assistant Administrator for 
Satellite and Information Services at the National Oceanic and 
Atmospheric Administration, and Mr. George Morrow is the 
Director of the Flight Projects Directorate at the Goddard 
Space Flight Center at the National Aeronautics and Space 
Administration. Thank you all for being here.
    Mr. Powner, please proceed.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Powner. Chairman Baird, Ranking Member Inglis and 
Members of the Subcommittee, we appreciate the opportunity to 
testify this morning on our GOES-R report completed at your 
request.
    This subcommittee's early oversight, Mr. Chairman, has been 
essential to ensure that NOAA is effectively planning for this 
critical satellite acquisition. Since the Subcommittee's last 
hearing, NOAA has made progress on this acquisition, awarding 
development contracts for five instruments and plans to award 
contracts for the spacecraft and ground segments this summer. 
NOAA has also made good progress implementing our 
recommendations, specifically has improved its risk management 
processes and increased oversight of its contractors. Today, as 
requested, I will provide an update on GOES-R's current cost 
and schedule estimates and how this affects continuity of 
satellite coverage, key reductions in satellite capability and 
recommendations going forward.
    Starting with cost and schedule, the new cost estimate is 
nearly $7.7 billion, an increase of $670 million from the prior 
estimate. Several key issues could affect this estimate. First, 
the estimate will be revisited after the spacecraft and ground 
segment contracts are awarded in May and June of this year. In 
addition, the Imager and Lighting Mapper costs are reported as 
high risk by the program and delivering these instruments could 
cost more than originally estimated.
    Turning to schedule and continuity of satellite coverage, 
NOAA has delayed several GOES-R program milestones, including 
issuing requests for proposals and contracts for the spacecraft 
and ground segments by 12 and 10 months, respectively. In fact, 
the spacecraft contract was already awarded and protested last 
December which led to NASA deciding to reevaluate the 
proposals. These delays have pushed the date when the first 
satellite will be launched by four months and it is now 
targeted for April 2015, as this chart throughout the hearing 
room displays.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I would like to also note too that this date could be later 
than April 2015. These delays in the launch of the first GOES-R 
satellite run counter to NOAA's policy of having a backup 
satellite in orbit at all times and could lead to gaps in 
coverage as displayed by the portion of the graphic that is in 
red throughout the hearing room. If NOAA experiences a problem 
with these two operational satellites before GOES is in orbit, 
it will need to rely on older satellites that are well beyond 
their expected operational lives.
    It is important to note, Mr. Chairman, that the cost 
increases and schedule delays just discussed would be greater 
if NOAA were not reducing program capabilities. Back in 
September 2006, the GOES-R acquisition went from delivering 81 
products to 68 when it dropped the technically complex sensor 
HES, a state-of-the-art sounder, to control costs. More 
recently to keep costs down, the program has once again 
eliminated the number of products GOES-R is expected to deliver 
from 68 to 34, a 50 percent reduction. These products include 
those associated with aircraft icing and turbulence. Program 
officials told us that the products dropped are not currently 
being produced by legacy GOES satellites.
    In addition to eliminating products from the program, NOAA 
users will not get critical data as quickly as planned. Such 
drastic reductions in functionality raise questions concerning 
how much better the GOES-R program will be when compared to 
legacy GOES products. Program officials claim as good or better 
but our analysis of the capabilities expected after HES was 
removed shows that some are less than GOES legacy capabilities. 
These are clearly laid out in our detailed report and are tied 
to product accuracy.
    We are making several recommendations to NOAA to control 
future costs and schedule growth including performing a 
detailed review of the most critical and expensive instrument, 
improving oversight of contractor performance and developing a 
plan that articulates which dropped capabilities will be 
restored since this could affect the program's cost and 
schedule. In addition, given the magnitude of the capabilities 
dropped from this program and the severity of the potential 
gaps in satellite coverage, we also recommended that NOAA 
inform this subcommittee of any further reductions in plan 
capabilities and of contingency plans to address the potential 
gaps in satellite coverage.
    In summary, Mr. Chairman, it is important that these 
recommendations be addressed to control future costs and 
schedule growth to ensure that capabilities are not reduced to 
a point that they are no longer meeting user needs and to 
assure that our nation mitigates the potential gap in satellite 
coverage.
    This concludes my statement. Thank you for your oversight 
of this important acquisition.
    [The prepared statement of Mr. Powner follows:]
                 Prepared Statement of David A. Powner

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to participate in today's hearing on 
our nation's Geostationary Operational Environmental Satellite-R (GOES-
R) series. The GOES-R series is to replace the current series of 
satellites, which will likely begin to reach the end of their useful 
lives in approximately 2014. This new series is expected to mark the 
first major technological advance in GOES instrumentation since 1994. 
It is also considered critical to the United States' ability to 
maintain the continuity of data required for weather forecasting 
through the year 2028. As requested, this statement summarizes our 
report being released today that (1) determines the status of the 
program, (2) evaluates whether plans for the GOES-R acquisition address 
problems experienced on similar programs, and (3) determines whether 
National Oceanic and Atmospheric Administration's (NOAA) plan to 
address the capabilities that were planned for the satellites, but then 
removed, will be adequate to support current data requirements.\1\
---------------------------------------------------------------------------
    \1\ GAO, Geostationary Operational Environmental Satellites: 
Acquisition is Under Way, but Improvements Needed in Management and 
Oversight, GAO-09-323 (Washington, D.C.: April 2, 2009).
---------------------------------------------------------------------------
    In preparing this testimony, we relied on our work supporting the 
accompanying report. That report contains a detailed overview of our 
scope and methodology. In addition, we updated factual information on 
satellite launch schedules as warranted. All of our work for this 
report was performed in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.

Background

    NOAA operates GOES as a two-satellite system that is primarily 
focused on the United States. These satellites are uniquely positioned 
to provide timely environmental data about the Earth's atmosphere, its 
surface, cloud cover, and the space environment to meteorologists and 
their audiences. They also observe the development of hazardous 
weather, such as hurricanes and severe thunderstorms, and track their 
movement and intensity to reduce or avoid major losses of property and 
life. Furthermore, the satellites' ability to provide broad, 
continuously updated coverage of atmospheric conditions over land and 
oceans is important to NOAA's weather forecasting operations.
    To provide continuous satellite coverage, NOAA acquires several 
satellites at a time as part of a series and launches new satellites 
every few years (see Table 1). NOAA's policy is to have two operational 
satellites and one backup satellite in orbit at all times.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Four GOES satellites--GOES-10, GOES-11, GOES-12, and GOES-13--are 
currently in orbit. Both GOES-11 and GOES-12 are operational 
satellites, with GOES-12 covering the east and GOES-11 the west. GOES-
13 is currently in an on-orbit storage mode. It is a backup for the 
other two satellites should they experience any degradation in service. 
GOES-10 is at the end of its service life, but it is being used to 
provide limited coverage of South America. The others in the series, 
GOES-O and GOES-P, are planned for launch over the next two years.\2\ 
NOAA is also planning the next generation of satellites, known as the 
GOES-R series, which are planned for launch beginning in 2015.
---------------------------------------------------------------------------
    \2\ Satellites in a series are identified by letters of the 
alphabet when they are on the ground and by numbers once they are in 
orbit.

GOES-R Program--An Overview

    NOAA plans for the GOES-R program to improve on the technology of 
prior series, in terms of both system and instrument improvements. The 
system improvements are expected to fulfill more demanding user 
requirements by updating the satellite data more often and providing 
satellite products to users more quickly. The instrument improvements 
are expected to significantly increase the clarity and precision of the 
observed environmental data. NOAA originally planned to acquire six 
different types of instruments.
    In September 2006, however, NOAA decided to reduce the scope and 
technical complexity of the GOES-R program because of expectations that 
total costs, which were originally estimated to be $6.2 billion, could 
reach $11.4 billion.\3\ Specifically, NOAA reduced the minimum number 
of satellites from four to two, canceled plans for developing a 
critical instrument--the Hyperspectral Environmental Suite (which 
reduced the number of planned satellite products from 81 to 68), and 
divided the Solar Imaging Suite into two separate acquisitions. The 
agency estimated that the revised program would cost $7 billion. In 
addition to the reductions in scope, NOAA also delayed the launch of 
the first satellite from September 2012 to December 2014.
---------------------------------------------------------------------------
    \3\ GAO, Geostationary Operational Environmental Satellites: 
Additional Action Needed to Incorporate Lessons Learned from Other 
Satellite Programs, GAO-06-1129T (Washington, D.C.: Sept. 29, 2006) and 
Geostationary Operational Environmental Satellites: Steps Remain in 
Incorporating Lessons Learned from Other Satellite Programs, GAO-06-993 
(Washington, D.C.: Sept. 6, 2006).
---------------------------------------------------------------------------
    NOAA is solely responsible for GOES-R program funding and overall 
mission success. However, since it relies on the National Aeronautics 
and Space Administration's (NASA) acquisition experience and technical 
expertise to help ensure the success of its programs, NOAA implemented 
an integrated program management structure with NASA for the GOES-R 
program. Within the program office, there are two project offices that 
manage key components of the GOES-R system--the flight and ground 
segment project offices. The flight project office, managed by NASA, is 
responsible for awarding and managing the spacecraft segment contract, 
delivering flight-ready instruments to the spacecraft segment 
contractor for integration onto the satellites, and overseeing the 
systems engineering and integration. The ground segment project office, 
managed by NOAA, oversees the ground contract, satellite data product 
development and distribution, and on-orbit operations of the 
satellites.

GOES-R Is in Development, But Costs Have Increased, Envisioned 
                    Functionality Has Been Reduced, and Schedules Have 
                    Been Delayed

    NOAA and NASA have made progress on the GOES-R program. In January 
2008, NOAA approved the program's move from the preliminary design and 
definition phase to the development phase of the acquisition life 
cycle. This approval also gave the program the authority to issue the 
requests for proposals for the spacecraft and ground segment projects--
which it did in January 2008 and May 2008, respectively. The program 
office plans to award the prime contract for the spacecraft segment in 
May 2009 and the contract for the ground segment in June 2009. In 
addition, between September 2004 and December 2007, the GOES-R program 
awarded contracts for the development of five key instruments.\4\ These 
instruments are currently in varying stages of development. Figure 1 
depicts the schedule for both the program and key instruments.
---------------------------------------------------------------------------
    \4\ A sixth instrument, the Magnetometer, is to be developed as 
part of the space segment contract.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


GOES-R Cost Estimate Has Increased, Envisioned Functionality Has Been 
                    Reduced, and Key Milestones Have Slipped

    NOAA has made several important decisions about the cost, scope, 
and schedule of the GOES-R program. After reconciling the program 
office's cost estimate with an independent cost estimate, the agency 
established a new program cost estimate of $7.67 billion, an increase 
of $670 million from the previous estimate. Agency officials plan to 
revisit this cost estimate after the spacecraft and ground segment 
contracts are awarded but stated that it was developed with a 
relatively high level of confidence and that they believe that any 
adjustments would be well within the $7.67 billion program budget.
    To mitigate the risk that costs would rise, program officials 
decided to remove selected program requirements from the baseline 
program and treat them as options that could be exercised if funds 
allow. These requirements include the number of products to be 
distributed, the time to deliver the remaining products (product 
latency), and how often these products are updated with new satellite 
data (refresh rate). Specifically, program officials eliminated the 
requirement to develop and distribute 34 of the 68 envisioned products, 
including aircraft icing threat, turbulence, and visibility. Program 
officials explained that these products are not currently being 
produced by legacy GOES satellites; they are new products that could be 
produced from the advanced GOES-R instruments. In addition, the program 
slowed planned product latency on the remaining products by as much as 
10 minutes for hurricane intensity and six minutes for volcanic ash 
detection and height. It also reduced the refresh rates on these 
products by as much as 55 minutes for sea surface temperatures, cloud 
top observations, and vertical moisture profiles in the atmosphere. 
Program officials included the restoration of the products, latency, 
and refresh rates as options in the ground segment contract--items that 
could be acquired at a later time.
    NOAA also delayed GOES-R program milestones including the dates for 
issuing the requests for proposals by up to six months and awarding the 
contracts for the spacecraft and ground segments by 12 and 10 months, 
respectively. The dates when the satellites would be available for 
launch have also slipped by four months, with the first satellite 
launch now scheduled for April 2015. Program officials attributed these 
delays to providing more stringent oversight before releasing the 
requests for proposals, additional time needed to evaluate the contract 
proposals, and funding reductions in fiscal year 2008.
    Recent events have raised doubts about the feasibility of the GOES-
R launch date. Specifically, after the spacecraft segment contract was 
awarded and then protested in December 2008, NASA decided to re-
evaluate the proposals. NASA now plans to re-award the contract in May 
2009. Because NASA has agreed to a 72-month development cycle for the 
spacecraft segment (from contract award date to launch readiness), the 
launch date of GOES-R will likely be delayed until at least May 2015.
    Any delays in the launch of the first GOES-R satellite run counter 
to NOAA's policy of having a backup satellite in orbit at all times and 
could lead to gaps in satellite coverage. This policy proved useful in 
December 2008, when NOAA lost communication with GOES-12, but was able 
to use GOES-13 as an operational satellite until communication was 
restored. However, beginning in November 2014, NOAA expects to have two 
operational satellites in orbit (O and P), but it will not have a 
backup satellite in place until GOES-R is launched. If NOAA experiences 
a problem with either of its operational satellites before GOES-R is in 
orbit, it will need to rely on older satellites that are beyond their 
expected operational lives and therefore may not be fully functional.

The GOES-R Program Office Has Taken Steps to Address Lessons Learned 
                    From Other Satellite Programs, But Important 
                    Actions Remain

    GOES-R has taken steps to address lessons from other satellite 
programs. These actions include ensuring sufficient technical readiness 
of the spacecraft and ground segments prior to awarding the contracts. 
However, key risks remain and important actions remain to be completed 
in selected areas. Specifically, key technology risks remain--affecting 
both the ground segment and the instruments. While the hardware that is 
to be used for the ground segment is mature, key components have not 
previously been integrated. In addition, the program office has 
identified the Advanced Baseline Imager and the Geostationary Lightning 
Mapper instruments as having a high level of risk associated with cost 
due in part to the technical challenges posed by each instrument. 
Program officials reported that they have sufficient management 
reserves to address these risks.
    To manage such risks, NOAA uses earned value management,\5\ a 
proven means for measuring progress against cost and schedule 
commitments and thereby identifying potential cost overruns and 
schedule delays early, when the impact can be minimized. Two key 
aspects of this process are (1) conducting comprehensive integrated 
baseline reviews to obtain agreement from stakeholders on the value of 
planned work and validate the baseline against which variances are 
calculated and (2) using monthly variance reports to provide 
information on the current contract status, the reasons for any 
deviations from cost or schedule plans, and any actions taken to 
address these deviations.
---------------------------------------------------------------------------
    \5\ Earned value management is a project management approach that, 
if implemented appropriately, provides objective reports of project 
status, produces early warning signs of impending schedule delays and 
cost overruns, and provides unbiased estimates of a program's total 
costs.
---------------------------------------------------------------------------
    To its credit, the GOES-R program office is using earned value 
management to oversee the key instrument contracts and plans to use it 
on the spacecraft and ground segment contracts. To date, the program 
office has performed integrated baseline reviews on the instruments and 
obtains and reviews variance reports for each of the instruments. 
However, the program's integrated baseline review for the Advanced 
Baseline Imager did not include a review of schedule milestones, the 
adequacy of how tasks are measured, and the contractor's management 
processes. Further, the variance reports for two instruments--the 
Advanced Baseline Imager and the Geostationary Lightning Mapper--do not 
describe all of the significant variances. Program officials explained 
that they meet with the contractor on a monthly basis to discuss all of 
the variances, but they were unable to provide documentation of these 
discussions or the reasons for, impact of, or mitigation plans for the 
variances. As a result of these shortfalls, the program office has less 
assurance that key instruments will be delivered on time and within 
budget, and it is more difficult for program managers to identify risks 
and take corrective actions.

NOAA Has Not Developed Plans for Meeting Requirements for Advanced 
                    Products

    Before it was canceled in September 2006, the Hyperspectral 
Environmental Suite was originally planned as part of the GOES-R 
satellite series to meet requirements for products that are currently 
produced by GOES satellites as well as new technically-advanced 
products not currently produced by GOES satellites. NOAA still 
considers these requirements to be valid, and NOAA and the science 
community still have a need for the advanced products.
    NOAA had planned to use the new sounding products to improve its 
performance goals, such as helping to increase the lead times 
associated with severe thunderstorm warnings from an average of 18 
minutes in 2000 to as much as two hours by 2025, and helping to 
increase the lead times associated with tornado warnings from an 
average of 13 minutes in 2007 to as much as one hour by 2025.\6\ In 
addition, NOAA had planned to use the new coastal waters imaging 
products to provide more accurate and quantitative understanding of 
areas for which NOAA has management responsibilities.\7\ In particular, 
the coastal water imaging products could have been used to predict and 
monitor the growth, spread, severity and duration of harmful algal 
blooms. Recent studies suggest that harmful algal blooms are occurring 
more frequently because of climate change.
---------------------------------------------------------------------------
    \6\ In addition to advanced sounding, other activities such as 
improvements in radar technologies are expected to help improve lead 
times.
    \7\ While current and future satellite systems provide selected 
coastal waters images, they lack the resolution, sampling frequency, 
and spectral information (field of vision) needed to monitor coastal 
areas and estuaries.
---------------------------------------------------------------------------
    NOAA, NASA, and the Department of Defense assessed alternatives for 
obtaining advanced sounding and coastal water imaging products from a 
geostationary orbit. The results of the analysis recommended that NOAA 
work with NASA to develop a demonstration sounder to fly on an as-yet 
undetermined satellite and to evaluate other options for coastal waters 
imaging. NOAA plans to assess the technical feasibility of various 
options and to have the National Research Council make recommendations 
on long-term options for coastal water imaging.
    However, NOAA has not defined plans or a timeline for addressing 
the requirements for advanced products. Further, agency officials were 
unable to estimate when they would establish plans to fulfill the 
requirements. Until a decision is made on whether and how to provide 
the advanced products, key system users will not be able to meet their 
goals for improving the lead times or accuracy of severe weather 
warnings, and climate research organizations will not obtain the data 
they need to enhance the science of climate, coastal, environmental, 
and oceanic observations.

Implementation of Recommendations Could Improve Management and 
                    Oversight

    In our report, we are making three recommendations that, if 
implemented, could improve the management and oversight of the GOES-R 
acquisition. These are: ensuring that any re-baselining of a key 
instrument includes an assessment of milestones, adequacy of resources, 
task and technical planning, and management processes; ensuring that 
reasons for cost and schedule variances are fully disclosed and 
documented; and, if feasible, developing a plan and timeline for 
restoring the advanced capabilities removed from the program.
    In written comments on a draft of this report, the Department of 
Commerce agreed with our findings and recommendations and outlined 
steps it is taking to implement them. The department also provided 
technical comments on the report, which we incorporated as appropriate.
    In summary, NOAA has made repeated and continuing efforts to learn 
from problems experienced on other satellite programs. The GOES-R 
satellite series is now in development, but program costs have 
increased, the scope of the program has been reduced, and schedules 
have been delayed. Further, unless the program exercises contract 
options, key benefits in terms of new products and faster data updates 
will not be realized. Of particular concern are the three years of 
launch delays since 2006. In addition, recent events make it likely 
that the launch of GOES-R will continue to slip, which increases the 
risk of having gaps in satellite coverage. Until NOAA and NASA act to 
address this risk, the United States' ability to maintain the 
continuity of data required for weather forecasting is in jeopardy. In 
addition, NOAA has not yet developed a plan or a timeline for 
recovering the advanced capabilities that were removed. Until such 
decisions and plans are made, the geostationary user community may not 
be able to make significant improvements in their severe weather 
forecasts, or their ability to monitor our coastal environments.
    Mr. Chairman and Members of the Subcommittee, this concludes our 
statement. We would be pleased to respond to any questions that you or 
other Members of the Subcommittee may have at this time.

Staff Acknowledgments

    Other key contributors to this testimony include Colleen M. 
Phillips, Assistant Director; Carol Cha; William Carrigg; Neil Doherty; 
Franklin Jackson; Kaelin Kuhn; Lee McCracken; and Eric Winter.

                     Biography for David A. Powner
    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, and cyber critical infrastructure protection 
reviews. He has nearly 20 years of both public and private information 
technology-related experience. In the private sector, he held several 
executive-level positions in the telecommunications industry, including 
overseeing IT and financial internal audits, and software development 
associated with digital subscriber lines (DSL). At GAO, he has led 
reviews of major IT modernization efforts at Cheyenne Mountain Air 
Force Station, the National Weather Service, the Federal Aviation 
Administration, and the Internal Revenue Service. These reviews covered 
many information technology areas including software development 
maturity, information security, and enterprise architecture. Dave has 
an undergraduate degree from the University of Denver in Business 
Administration and is a graduate of the Senior Executive Fellows 
program at Harvard University's John F. Kennedy School of Government.

    Chairman Baird. Thank you, Mr. Powner.
    Ms. Kicza.

  STATEMENT OF MS. MARY E. KICZA, ASSISTANT ADMINISTRATOR FOR 
  SATELLITE AND INFORMATION SERVICES, NATIONAL ENVIRONMENTAL 
SATELLITE, DATA, AND INFORMATION SERVICE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Ms. Kicza. Chairman Baird, Ranking Member Inglis, 
distinguished Members and staff, I am pleased to join Mr. 
Powner of GAO and Mr. Morrow of NASA to discuss the GOES-R 
program, NOAA's next generation geostationary satellite system. 
I am pleased to report that our current GOES satellites are 
providing data 24 hours a day, seven days a week. We are 
preparing the GOES-O satellite for launch later this year and 
completing development of the GOES-P satellite.
    As you said, NOAA's geostationary satellites are best known 
for creating hurricane pictures that you see on television. 
They provide data to help forecast the weather and are critical 
to detecting and tracking severe weather. The value of GOES 
data was recently demonstrated during the wildfires in Oklahoma 
and Texas, as you have just shown.
    I would like to review briefly the status of the GOES 
program. We have made significant progress to address the cost, 
schedule and technical risks the program faced. I addressed 
this when I testified in front of this subcommittee nearly two 
years ago. The program will certainly face further risks during 
the course of this development, but we have established 
rigorous processes and reporting thresholds to provide early 
warning of risks so that we can promptly address them. In 
collaboration with NASA, we have developed an acquisition 
strategy that takes advantage of the strengths of each agency. 
NOAA has program management and funding responsibilities for 
the program. NASA manages the flight project which includes the 
instruments, the spacecraft and procuring a launch vehicle. 
NOAA manages the ground system project which includes ground 
station and weather products development. This places the 
government in direct oversight and control of each of the key 
elements of the program. NASA plans to award the spacecraft 
contract in May of this year. NOAA plans to award the ground 
system contract in June of this year. Awarding these contracts 
are important milestones for the program.
    We have encountered some issues during instrument 
development thus far. That is why we build prototype models of 
the most complex sensors to resolve the issues before the final 
flight instruments are built to fly in a satellite. We have 
addressed all of these issues within the existing budget. The 
current budget supports development and operations for the 
GOES-R and -S satellites through 2028. Subject to availability 
of funds in future fiscal years, we anticipate exercising 
contract options to procure and operate two additional 
satellites, GOES-T and -U.
    I would like to turn to the GAO report. I want to say that 
we value--we greatly value the insight provided by GAO. We are 
pleased that the GAO has recognized the program's progress 
since they began to review this program, especially recently 
our strides implementing sound cost estimating methodologies.
    I would like to address the report's recommendations. The 
GOES-R program office recently modified the Advanced Baseline 
Imager contract to more closely align its schedule with the 
planned schedule for spacecraft development and we have 
adjusted the earned value metrics accordingly. GAO's first 
recommendation states that with the changes of this nature, the 
program should conduct a formal integrated baseline review. We 
agree with this recommendation and expect to complete one by 
the end of this year. In the interim, the program will continue 
to closely manage the ABI development.
    The second recommendation directed the agency to improve 
its ability to oversee contractor performance by ensuring the 
reasons for cost and schedule variances are fully disclosed and 
documented. We agree with this recommendation. The program has 
been receiving information on all costs and schedule variances. 
The practice has been for our major instrument development, 
ABI, that the contractor submit detailed analysis on the top 
five cost and schedule variances. The program then meets with 
each of the contractors monthly to discuss any additional 
variances that require additional clarification. From this 
point forward we will formally document the results of those 
meetings and track any resulting actions.
    The next recommendation calls for a plan and timeline if 
feasible and justified for recovering the advanced capabilities 
that were removed from the program when the Hyperspectral 
Environmental Suite was canceled. We agree with the 
recommendation. The user requirements for the HES advanced 
capabilities are documented. While the capabilities are not 
currently a part of the GOES-R program, the ability to 
accommodate them in the future has been retained. The 
measurements which had originally been planned for HES remain 
important to a wide range of users and my office is examining 
how to best bring these capabilities to bear in the future. We 
are seeking information on capabilities that the U.S. private 
sector can contribute and we are actively exploring the 
potential of international collaboration to bring the 
capabilities to bear. As the efforts mature and given they are 
deemed of high priority in comparison to other NOAA 
observational needs, we will request funds to support the 
capabilities on our satellite platforms.
    I want to take the opportunity to once again thank Mr. 
Powner and his staff for the recommendations offered. We agree 
with them and we are responding to them. I want to thank Mr. 
Morrow. We value the expertise that NASA provides for GOES-R. 
We have a strong NOAA-NASA partnership in GOES-R and our team 
is fully committed to its success.
    I appreciate the Committee's interest in our satellite 
programs and I am happy to answer any questions you may have.
    [The prepared statement of Ms. Kicza follows:]
                  Prepared Statement of Mary E. Kicza

Introduction

    Mr. Chairman and Members of the Subcommittee, I am Mary E. Kicza, 
Assistant Administrator of the National Environmental Satellite, Data, 
and Information Service (NESDIS). NESDIS is part of the National 
Oceanic and Atmospheric Administration (NOAA), within the Department of 
Commerce. NOAA's mission is to understand and predict changes in 
Earth's environment and conserve and manage coastal and marine 
resources to meet our nation's economic, social, and environmental 
needs.
    I appreciate the opportunity to discuss with you today NOAA's 
environmental satellite programs and to highlight their importance to 
our hurricane and other severe weather forecasting and warning 
capabilities. NOAA has made significant progress in the development of 
the next generation Geostationary Operational Environmental Satellites 
R Series (GOES-R) program since the last hearing on this topic on 
October 23, 2007.
    NOAA's satellite acquisitions are complex and difficult development 
efforts. I will be the first to acknowledge that it is a challenge to 
build the complex satellites that are required to meet the requirements 
of our customers and users. However, NOAA has implemented several 
changes to strengthen the program control processes within our 
satellite development programs in response to lessons learned from 
programs including the National Polar-orbiting Operational 
Environmental Satellite Systems (NPOESS) and from the recommendations 
of outside reviewers, such as the U.S. Government Accountability Office 
(GAO).

What Are Geostationary Satellites?

    NOAA has operated geostationary operational environmental 
satellites (GOES) since the 1970s. These satellites are located more 
than 22,000 miles above the equator and provide near continuous images 
and data on atmospheric, oceanic, and climatic conditions over the 
continental United States and Hawaii. These satellites are best known 
for creating the hurricane pictures you see on television, but they 
also provide the data to help forecast the weather and are critical to 
detecting and tracking severe weather.
    We operate two geostationary satellites, one over the east coast 
and the other over the west coast. To protect against a loss of 
satellite coverage, we maintain a spare satellite in space that can be 
repositioned and brought out of storage to take the place of a failed 
satellite. Given the importance of the data from these satellites, 
continuity of operations remains our highest priority.

Status of the Current GOES Constellation (GOES I-M and GOES-N Series)

    Individual GOES satellites have a letter designation through their 
development until they are launched, placed in orbit, and have 
completed a rigorous checkout procedure. They are then given numeric 
designations for their operational lifetimes. The operational 
satellites in space now, GOES-11 and GOES-12, are the last two 
satellites of the GOES I-M series.
    The next series of geostationary satellites is called GOES-N, and 
this series consists of the same instruments as the GOES I-M series. 
The first of the GOES-N series satellites was launched in May 2006 and 
is currently serving as the on-orbit spare. The final two satellites 
from this series are GOES-O and GOES-P, with GOES-O scheduled to launch 
later this year.

What Is the GOES-R Series?

    GOES-R is a joint development and acquisition effort between NOAA 
and the National Aeronautics and Space Administration (NASA) as 
documented in a jointly signed Memorandum of Understanding and 
Management Control Plan. The GOES-R series will replace the GOES-N 
series and extend geostationary capabilities through FY 2028.
    GOES-R will provide forecasters and scientists with a new suite of 
improved instruments. These new instruments will enhance our current 
capability to track and monitor severe weather on Earth with improved 
imagery and scan rates. Additionally, solar environmental monitoring 
instruments will provide advances for space weather forecasting. GOES-R 
will provide more timely and accurate weather forecasts and improve the 
detection and observations of severe weather events that directly 
affect public safety, protect property, and, ultimately support the 
country's economic health and development.
    Under a multi-contract acquisition strategy, NASA will procure the 
space segment (including spacecraft and instruments) and NOAA will 
procure the ground segment (including the ground system that will 
conduct satellite operations and environmental product generation and 
distribution) for the GOES-R program. The GOES-R planned launch is 
April 2015; however, delays in the spacecraft procurement may impact 
the launch date. The GOES-R program will analyze the impact to planned 
launch dates once the spacecraft and ground contracts are awarded and 
underway.
    The GOES-R program is budgeted for two satellites and a supporting 
ground system and has unfunded options for two additional satellites. 
GOES-R instruments include an Advanced Baseline Imager (ABI), the main 
imaging sensor for the satellite; solar instruments, including the 
Extreme Ultraviolet and X-ray Irradiance Suite (EXIS) and Solar 
Ultraviolet Imager (SUVI); a Space Environment In-Situ Suite (SEISS); 
and a new Geostationary Lightning Mapper (GLM), which will monitor 
lightning strikes to enhance severe weather prediction. The spacecraft 
will also host a magnetometer.
    The imagery improvements provided by the ABI and the addition of 
the GLM to the GOES instrument suite will lead to improved 
observations, forecasts, and warnings for a host of environmental 
hazards, including severe thunderstorms, tornadoes, hurricanes, 
lightning, flash floods, winter storms, fog, forest fires, and poor air 
quality.
    The ABI Prototype Model (a model built to test the design of the 
sensor before the first instrument for flight is assembled) is now 
being integrated by the instrument contractor, ITT Corporation (ITT). 
Testing of the prototype model will proceed through the end of the 
year, while ITT begins development of the first flight model during the 
next year.
    The GLM instrument contract was awarded to Lockheed Martin Advanced 
Technologies Corporation in December 2007. The instrument's Preliminary 
Design Review was successfully conducted earlier this year, and the 
instrument is now in its detailed design phase. The remaining 
instruments have all had successful Preliminary Design Reviews and are 
also in the detailed design phase. (Appendix 1 includes additional 
information about instrument development.)

Status of GOES-R Spacecraft Acquisition

    On December 4, 2008, the GOES-R program awarded the spacecraft 
contract to Lockheed Martin Space Systems Company to build two 
spacecraft for the GOES-R program. The total estimated value of the 
basic contract including the two options is $1.09 billion. The basic 
contract is for two spacecraft with two unfunded options that each 
provide for one additional spacecraft.
    On December 15, 2008, Boeing Satellite Systems filed a protest with 
GAO against the GOES-R spacecraft contract award to Lockheed Martin 
Space Systems Company. On February 17, 2009, NASA requested GAO dismiss 
the protest based on NASA's decision to re-evaluate the proposals and 
make a new award decision. On February 19, 2009, GAO dismissed the 
protest. After the protest was dismissed, the Source Evaluation Board 
(SEB) reconvened to re-evaluate the proposals of Lockheed Martin and 
Boeing. The contract remains suspended until a new award decision is 
announced, which is currently planned for May.

Status of GOES-R Ground Systems Acquisition

    The GOES-R Program Office is working toward awarding the GOES-R 
ground segment contract in June 2009. The ground segment will maximize 
use of well proven technologies for its systems. Scientific algorithm 
development to develop new environmental products from GOES-R series 
satellite data will be performed by an experienced NOAA science team 
partnered with university-based cooperative institutes and NASA 
scientists.

Ongoing GAO Review of the GOES-R Program

    GAO has provided regular reviews of our GOES-R Series acquisition 
for many years and we appreciate the perspective the GAO professionals 
provide. We have met with GAO and provided information and feedback on 
its most recent report. I will summarize this information for you 
today.
    I am pleased the GAO report recognizes we have taken steps to apply 
the lessons learned from other satellite programs to the procurement of 
GOES-R. I understand we have more work to do to improve the overall 
management of these complex and high risk programs, and the joint NOAA/
NASA team is fully committed to making these improvements.
    Specifically, the GAO provided three recommendations:

Recommendation number one: As part of any effort to re-baseline the 
cost and schedule of the Advanced Baseline Imager, perform an 
integrated baseline review and ensure the review includes an assessment 
of key schedule milestones, the adequacy of resources, task and 
technical planning, and management processes.

    NOAA agrees with this recommendation. NOAA will perform an 
integrated baseline review on the Advanced Baseline Imager as part of 
any effort to re-baseline its cost and schedule. The integrated 
baseline review will include assessment of the technical scope of the 
work, key schedule milestones, the adequacy of resources, task and 
technical planning, and management processes. There is no near-term 
plan to re-baseline ABI at this time.

Recommendation number two: Improve the agency's ability to oversee 
contractor performance by ensuring the reasons for cost and schedule 
variances are fully disclosed and documented.

    NOAA agrees with this recommendation. GOES-R contractors submit 
monthly Cost Performance Reports with itemization of all variances. The 
GOES-R program office will ensure these cost and schedule variances 
reported by the contractor are elaborated upon as needed for full 
understanding and disclosure. Also, the GOES-R program office will 
fully document the actions taken to address significant cost and 
schedule variances, along with the reasons for and impact of those 
actions.

Recommendation number three: If feasible and justified, develop a plan 
and timeline of recovering the advanced capabilities that were removed 
from the program when the Hyperspectral Environmental Suite was 
canceled.

    NOAA agrees with this recommendation. NOAA will identify and 
validate user requirements, evaluate the priority of addressing those 
requirements against the technical feasibility of meeting those 
requirements, and determine the most appropriate methods to meet them.

Conclusion

    I appreciate the Committee's continued interest in NOAA's satellite 
programs. It is widely acknowledged satellites are very complicated and 
difficult systems to design, build, and operate. However, their 
capabilities play a role in NOAA's mission to observe and predict the 
Earth's environment and to provide critical information used in 
protecting life and property.
    We are making significant strides in developing a better process 
for designing and acquiring our satellites. We have fully functioning 
operational satellites with backup systems in place, and we are working 
on the next generation that will provide significant improvements in 
our ability to forecast the weather and other environmental phenomena. 
I would be happy to answer any questions you may have.

Appendix 1

                        GOES-R Instrument Status

<bullet>  Advanced Baseline Imager (ABI)

        --  Implementation phase

        --  Contractor: ITT Corporation, Ft. Wayne, IN

<bullet>  Space Environmental In-Situ Suite (SEISS)

        --  Implementation phase

        --  Contractor: Assurance Technology Corporation, Carlisle, MA

<bullet>  Extreme Ultra Violet/X-Ray Irradiance Sensor (EXIS)

        --  Implementation phase

        <bullet>  Contractor: Laboratory for Atmospheric and Space 
        Physics, Boulder, CO

<bullet>  Solar Ultra Violet Imager (SUVI)

        <bullet>  Implementation phase

        <bullet>  Contractor: Lockheed Martin Advanced Technology Corp, 
        Palo Alto, CA

<bullet>  Magnetometer

        --  To be procured as part of spacecraft contract

<bullet>  Geostationary Lightning Mapper (GLM)

        <bullet>  Implementation phase

        <bullet>  Contractor: Lockheed Martin Advanced Technology Corp, 
        Palo Alto, CA

                      Biography for Mary E. Kicza
    Mary E. Kicza is the NOAA Assistant Administrator for Satellite and 
Information Services. NOAA Satellite and Information Service is 
dedicated to providing timely access to global environmental data from 
satellites and other sources to promote, protect, and enhance the 
Nation's economy, security, environment, and quality of life. In this 
role, Ms. Kicza leads the acquisition and operation of the Nation's 
civil operational environmental satellite system. She also leads 
efforts for research and development of products and programs to 
archive and provide access to a variety of Earth observations via three 
national data centers.
    Ms. Kicza is a leader in the international Earth observation 
community, serving as Chairman of the Committee on Earth Observation 
Satellites Strategic Implementation Team. In this capacity, she leads 
efforts to coordinate global satellite-based observations among 
international space agency partners to further the development of a 
Global Earth Observation System of Systems. In addition, Ms. Kicza 
serves as the Co-Chairman of the NOAA Observing Systems Council, a 
group which coordinates observing systems requirements and provides 
resource recommendations for NOAA's observation platforms. She is also 
a member of the NOAA Executive Council, NOAA's executive decision-
making body.
    Before coming to NOAA, Ms. Kicza was the Associate Deputy 
Administrator for Systems Integration at the National Aeronautics and 
Space Administration (NASA). As a senior leader within NASA, she was 
responsible for assuring that the mission and mission support elements 
were effectively aligned and integrated. She served previously as the 
Associate Administrator for Biological/Physical Research, the Associate 
Center Director for Goddard Space Flight Center, the Assistant 
Associate Administrator for Space Science, and the Deputy Director of 
the Solar System Exploration Division. Ms. Kicza began her career as an 
engineer at McClellan Air Force Base in California, before joining NASA 
in 1982 as a lead engineer supporting the Atlas Centaur and Shuttle 
Centaur launch vehicles.
    Ms. Kicza has served with distinction in a variety of technical, 
managerial, and leadership posts, supporting the development, launch, 
and operation of satellite systems as well as multi-faceted research 
and development programs. She has significant experience in building 
and maintaining effective relationships with the Office of Management 
and Budget, the Office of Science and Technology Policy, the Defense 
Department, Congress, the aerospace industry, and a diverse research 
community. Ms. Kicza has earned two SES Meritorious Service Awards, 
NASA's Distinguished Service and Scientific Achievement Medal, and 
numerous other awards.
    Ms. Kicza received her Bachelor's Degree in Electrical and 
Electronics Engineering from California State University and a Master's 
Degree in Business Administration from the Florida Institute of 
Technology.

    Chairman Baird. Thank you, Ms. Kicza.
    Mr. Morrow.

   STATEMENT OF MR. GEORGE W. MORROW, JR., DIRECTOR, FLIGHT 
PROJECTS, GODDARD SPACE FLIGHT CENTER, NATIONAL AERONAUTICS AND 
                      SPACE ADMINISTRATION

    Mr. Morrow. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to be here today to discuss 
NASA's role in support of NOAA for the GOES-R series. NASA 
Goddard Space Flight Center in Greenbelt, Maryland has a long 
history in weather satellite development, having developed and 
launched the world's first weather satellite in 1960 called the 
Television Infrared Observation Satellite, or TIROS for short.
    Today NASA and NOAA share a 39-year partnership in 
designing, developing and launching GOES and POES environment 
satellites. These spacecraft provide our nation with 
meteorological data for the weather observations, research, 
forecasting and storm warnings that we have all come to rely on 
every day.
    Today my testimony outlines the steps NOAA and NASA are 
taking to minimize costs, schedule and performance risks on 
GOES-R. In addition, I would like to highlight the ways NASA 
continues to fill the Agency's commitment to providing complete 
transparency to its program management activities to ensure the 
successful and timely delivery of GOES-R. Effectively managing 
costs, schedule and performance risks requires the up-front 
identification of the most vulnerable program areas. For the 
GOES-R program, NASA and NOAA identified the following areas 
together: requirements definition, instrument development, 
instrument interfaces and contract oversight. NOAA and NASA 
took exceptional steps up front to fully define all the 
requirements for GOES-R. We capitalized on the lessons learned 
from other major similar satellite programs and employed 
Goddard's own internal lessons learned and rules. As a result, 
the GOES-R set of requirements represents the best-defined 
requirement set of any previous GOES mission.
    The GOES-R series spacecraft, as you know, includes six key 
instruments. In 2001, NASA and NOAA issued preliminary design 
contracts as an initial step to mitigating risk associated with 
GOES-R instrument development activities. Implementing that 
phased-type approach provided for an initial study period where 
technology maturation and vulnerabilities were assessed and 
rigorous requirements evaluations were completed before 
contracting for the implementation and development phases for 
the instruments. Interfaces between the instruments and the 
spacecraft are another area and a development challenge for any 
complex satellite acquisition. NASA engaged in a number of risk 
reduction activities, including developing and qualifying the 
instrument-to-spacecraft communications interface, and these 
risk reduction activities are directly applicable to the GOES-R 
mission and serve to reduce risk. Demonstrating responsible 
cost and schedule performance demands that NASA and NOAA 
develop a robust programmatic cost and schedule baseline and to 
closely monitor contract performance, maintaining contract 
oversight. All of the instrument and spacecraft contracts for 
GOES-R are managed as separate entities within the GOES-R 
flight project, not as one large prime contract, thereby 
assuring that the government has authority to implement changes 
necessary to ensure the success. For each of those contracts, 
we have dedicated managers and contracting officers and 
engineering oversight and each effort is afforded the attention 
required to stay on top of developments, issues and risks. In 
addition, as you well know, we have fully implemented our value 
management and review the data with the GOES-R NOAA Program 
Office on a monthly basis.
    You are also aware that the GOES-R spacecraft contract is 
in source selection process. Lockheed Martin was awarded the 
GOES-R spacecraft contract in December of last year. December 
15, Boeing Satellite Systems filed a bid protest with GAO. As a 
result of the protest, the contract with Lockheed Martin was 
suspended and on February 19, GAO dismissed the protest. NASA's 
Source Evaluation Board reconvened to reevaluate the proposals 
of Lockheed Martin and Boeing and a new contract award is 
scheduled to be accomplished in May. Please note that the 
government is not at liberty to provide details concerning the 
GAO bid protest proceedings at this point since those are 
subject to the protective order issued by GAO. In addition, 
since new contract award has not yet been made, NASA is unable 
to disclose information concerning the reevaluation as it is 
source selection sensitive.
    In the meantime, NASA is taking all possible steps to 
minimize schedule risk. Instrument contracts are being held to 
their original delivery dates and not being allowed to slip. 
The delayed award of the spacecraft contract could also result 
in instrument accommodation risk or interface risk and we at 
the Goddard Space Flight Center are acting in that interface 
role with the instrument contractors in the absence of a 
spacecraft contractor.
    NASA and NOAA took very great steps to be an integrated 
program at the beginning of this. We have a NOAA program office 
co-located at the Goddard Space Flight Center with the NASA 
Flight Project and the NOAA ground project. There are over 100 
NOAA civil servants and contractors located on site. We are 
intimately involved with NOAA and the program office there, and 
the NOAA program office and program folks have full access to 
all contract deliverables and reporting requirements and we are 
in lockstep with them. It is a very close partnership.
    In closing, I am glad to be here. I want to answer any 
further questions you have and I hope that you will become 
confident that we are successfully managing this program. Thank 
you.
    [The prepared statement of Mr. Morrow follows:]
              Prepared Statement of George W. Morrow, Jr.
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss NASA's role and support to the 
National Oceanic and Atmospheric Administration (NOAA) for the 
Geostationary Operational Environmental Satellites R Series (GOES-R). 
The NASA Goddard Space Flight Center (GSFC) in Greenbelt, Maryland 
developed and launched the world's first weather satellite in 1960 
called the Television Infrared Observation Satellite (TIROS). Designed 
to test experimental television techniques that would lead to a 
worldwide meteorological information system, TIROS demonstrated the 
benefits of studying Earth's weather systems from space. Today, NASA 
and NOAA share a 39-year partnership designing, developing and 
launching the GOES weather satellites. The GOES and Polar Operational 
Environmental Satellite (POES) series provide our Nation with the 
meteorological data for the weather observations, research, 
forecasting, and storm warnings that we have come to rely on. Through 
this partnership, NOAA and NASA are now implementing plans for the 
design, development and launch of the next generation geostationary 
weather satellite, the GOES-R series. These next-generation spacecraft 
will further improve our ability to observe and predict weather events 
and provide a means for the identification of severe storm conditions 
such as hurricanes and tornadoes.
    NASA recognizes the importance of delivering missions on cost and 
on schedule, and developing clear and stable baselines. Developing 
scientific instruments, spacecraft, and new launch systems often 
requires that the Agency redefine state-of-the-art. Often, NASA is 
pushing the technology boundaries and must venture beyond our past 
experience and into an environment of uncertainty and higher risk. The 
GOES-R satellite series is a major improvement over the previous system 
and therefore it does come with some risk. Today my testimony outlines 
the steps NOAA and NASA are taking to minimize cost, schedule and 
performance risk on the GOES-R program and how NASA continues to 
fulfill the Agency's commitment to providing complete transparency to 
its program management activities to ensure the successful and timely 
delivery of the GOES-R series spacecraft.

Minimizing Cost, Schedule and Performance Risk

    Effectively managing cost, schedule and performance risk requires 
the identification of the most vulnerable program areas. For the GOES-R 
program, NASA and NOAA identified the following areas: 1) requirements 
definition; 2) instrument development; 3) instrument interfaces; and, 
4) contract oversight.
    Developing well-defined mission requirements is the critical first 
step to any major system acquisition. NOAA and NASA took exceptional 
steps to fully define all requirements for the GOES-R space and ground 
segments. This included defining performance, interface, testing, 
quality assurance, and deliverable requirements. During the formulation 
phase, NASA worked with NOAA to define and refine the instrument 
performance requirements. These requirements flow down to NASA from 
NOAA through the Mission Requirements Document (MRD). NASA then 
allocated the NOAA performance requirements to the individual 
instruments within the GOES-R payload suite. During the Program 
Definition and Risk Reduction phase (PDRR), NASA worked with the 
prospective spacecraft and ground system providers to refine the 
spacecraft specification. Capitalizing on lessons learned from other 
major spacecraft programs, and employing the GSFC Goddard Open Learning 
Design\1\ (GOLD) Rules, NOAA and NASA developed specifications, mission 
assurance requirements, and statements of work to fully define the 
mission requirements. Thus, the GOES-R set of requirements represents 
the best defined requirements set of any previous GOES mission, and an 
excellent baseline from which to proceed with development of the 
Nation's next generation geostationary weather satellite.
---------------------------------------------------------------------------
    \1\ http://askmagazine.nasa.gov/issues/22/
22<INF>-</INF>enhancing<INF>-</INF>day.php
---------------------------------------------------------------------------
    The GOES-R series spacecraft includes five key instruments: the 
Advanced Baseline Imager (ABI); the Space Environmental In-Situ Suite 
(SEISS); the Extreme Ultra Violet and X-ray Irradiance Sensor (EXIS); 
the Solar Ultra Violet Imager (SUVI); and, the Geostationary Lightning 
Mapper (GLM). A sixth instrument, the magnetometer, will be developed 
as part of the spacecraft contract. In 2001, NASA and NOAA issued 
preliminary design (or formulation) contracts as an initial step to 
mitigating risk associated with the GOES-R instrument development 
activities. Implementing a ``phased-contract'' approach provided for an 
initial study period where technology maturity and vulnerabilities were 
assessed and rigorous requirements evaluations were completed before 
contracting for the implementation and development phases. The first 
instrument formulation contract awarded was for the ABI. Considered the 
most complex instrument development activity, ABI will monitor and 
track severe weather and provide images of clouds to support forecasts. 
Awarding the ABI development effort early and employing the phased 
contract approach allowed the GOES-R program sufficient time to work 
through all of the issues that arise during the development of a state-
of-the-art instrument and ensures that the performance of the ABI 
instrument meets our customer's requirements. Subsequently, study and 
implementation contracts were awarded for each of the remaining four 
GOES-R instruments. ABI has completed its critical design review (CDR) 
and the prototype model instrument is currently being integrated. The 
remaining four instruments have all completed their preliminary design 
reviews (PDR) and are working towards their CDRs.
    Interfaces between instruments and spacecraft present the next 
greatest development challenge for the GOES-R program. NASA has engaged 
in a number of risk reduction activities to reduce the risk on the 
GOES-R program. These include developing and qualifying the instrument 
to spacecraft communications interface (e.g., SpaceWire communications 
protocol). Other risk reduction activities include Global Positioning 
System (GPS) at Geostationary (GEO) receiver development, Field-
Programmable Gate Array (FPGA) life testing, Electrical, Electronic, 
and Electromechanical (EEE) parts radiation testing, loss-less 
compression chip development, solar-blind detector development, dual 
circular-polarization receiver testing, and thermal radiator (white 
paint) coatings qualification. All of these activities are directly 
applicable to the GOES-R mission and serve to reduce risk for flight 
hardware contractors.
    Demonstrating responsible cost and schedule performance demands 
that NASA closely monitor contract performance, maintaining contract 
oversight to ensure the delivery of quality and timely products. All 
instrument and spacecraft contracts are managed as separate entities 
within the GOES-R Flight Project--not as one large prime contract--
thereby assuring that the Government has the authority to implement any 
actions necessary to ensure success. With dedicated managers, 
contracting officers and engineering oversight, each effort is afforded 
the attention required to stay on top of developments, issues, and 
risks. NASA performs in-depth contract reviews and has implemented the 
necessary insight and oversight into the contractors' efforts. NASA has 
fully implemented earned value management on all flight hardware 
contracts and reviews the data with the GOES-R Program Office on a 
monthly basis. With GSFC's 50-year history in managing spacecraft 
development efforts (with skills in engineering, procurement, mission 
assurance, and mission management), NASA is in a position to apply all 
necessary resources to the GOES-R Program to reduce risk and ensure 
success.

Space Segment Contract Award

    By way of background, Lockheed Martin Space Systems Company (LMSSC) 
was awarded the GOES-R spacecraft contract on December 4, 2008. On 
December 15, 2008, Boeing Satellite Systems (BSS) filed a bid protest 
with the Government Accountability Office (GAO) against the GOES-R 
spacecraft contract award to LMSSC. As a result of the protest, the 
contract and any associated work were suspended. On February 17, 2009, 
NASA requested that the GAO dismiss the protest as a result of the 
Agency's decision to re-evaluate the proposals of Lockheed Martin and 
Boeing, and make a new selection decision. On February 19, 2009, the 
GAO dismissed the protest. After the protest was dismissed, the NASA 
Source Evaluation Board (SEB) reconvened to re-evaluate the proposals 
of Lockheed Martin and Boeing. A new contract award is planned for May 
2009. Please note that the Administration is not at liberty to provide 
details concerning the GAO bid protest proceedings, since those are 
subject to the protective order issued by GAO. In addition, since a new 
contract award has not yet been made, the Administration is unable to 
disclose information concerning the re-evaluation, as it is source 
selection sensitive.
    Once NASA has selected a spacecraft contractor and NOAA has 
selected a ground system contractor, NOAA will establish a new launch 
readiness date. In the meantime, NASA is taking all possible steps to 
minimize schedule risk. Instrument contracts are being held to their 
original delivery dates and not being allowed to slip.
    The delayed award of the spacecraft contract may result in 
additional instrument accommodations risk. This risk is defined as the 
possibility of incompatible interfaces between the spacecraft and 
instruments. However, to mitigate this risk NASA's Flight Project 
Office continues to perform as the spacecraft integrator in the absence 
of a spacecraft contractor. Overcoming this challenge is not new to 
NASA, where frequently instrument development efforts are initiated 
very early in the systems acquisition process given their long-lead 
development requirements. NASA has established resource allocations on 
the GOES-R program for the instruments and spacecraft, holding 
sufficient margins against both. In addition, NASA has established and 
documented firm interface requirements for the instruments and 
spacecraft, which are on all contracts.

NASA Program Management Transparency

    NASA continues to fulfill its commitment towards complete 
transparency in the execution of the Flight Project within the GOES-R 
Program. Starting early in the GOES-R program formulation, NASA and 
NOAA made the decision to co-locate the GOES-R Program Office and 
Ground Project at GSFC. Employing a centrally located GOES Program 
Office is a first for the long-term NOAA/NASA relationship. The co-
located office enables daily interaction between the respective project 
elements and fosters closer working relationships. Approximately 100 
NOAA employees and contractors supporting GOES-R reside and work at 
GSFC. Within the NASA Flight Project, the Deputy Project Manager (DPM) 
is a NOAA employee and three of the Instrument Managers are NOAA 
employees. Within the NOAA Ground Project, the DPM is a NASA employee 
as is the Systems Manager. Within the NOAA Program Office, the 
Assistant System Program Director is a NASA employee and within the 
Program Systems Engineering Office, the lead Program Systems Engineer 
is a NASA employee, and the Deputy is a NOAA employee. From a personnel 
standpoint, the GOES-R Program is totally integrated.
    The NASA Flight Project reports directly to the NOAA Program 
Office. So, all of the typical staff meetings, board meetings, etc. 
that occur on a routine basis within a Program Office are attended by 
the Flight Project and reported to the NOAA Program Office. Conversely, 
NOAA Program Office personnel attend all NASA flight hardware 
contractor reviews and internal technical meetings. All deliverable 
contractor data is stored electronically and the NOAA Program Office 
has access to all data. Finally, all earned value analysis for the 
Flight Project is performed by the NOAA Program Office.
    External reporting is handled similarly. The GOES-R Management 
Control Plan (MCP) outlines the overall reporting requirements. Both 
GOES-R Projects engage in the standard reporting processes that are 
implemented for Projects at GSFC. Both Projects report status on a 
monthly basis to the Director of Flight Projects and then again to the 
GSFC Center Management Council (CMC) at Monthly Status Review (MSR) 
meetings. The GOES-R Program Office attends both of these reviews and 
is invited to present status as well. Additionally, NOAA/National 
Environmental Satellite, Data, and Information Service (NESDIS) 
personnel attend the MSR and sit at the table with the GSFC CMC in 
review of the GOES-R Projects. The same is true with the NOAA Program 
Management Council (PMC). The GOESR Program presents monthly to the 
PMC, along with other NASA/NOAA Programs--GOES-N/P, POES, NPP, and 
NPOESS. Sitting on the PMC, along side of NOAA, are representatives of 
senior leadership from GSFC. These include the GSFC Deputy Center 
Director and the NASA Chief Engineer. NOAA senior leadership hears 
exactly the same thing as NASA management, sitting side-by-side at two 
different monthly reviews of the GOES-R Program.
    In summary, NOAA has access to all contract documentation and 
attends all contract reviews. NOAA attends and participates in all 
Flight Project reporting to NASA management, and NASA participates in 
NOAA PMC meetings. NOAA performs all of the earned value analysis on 
the Flight Project contracts, so there is no misunderstanding of any 
cost or schedule performance issues. There is unprecedented 
transparency between NASA and NOAA on the GOES-R Program.

Conclusion

    In closing, NASA remains committed to minimizing cost, schedule and 
performance risk on the GOES-R program and fulfilling our commitment to 
providing transparency in our project management activities. Building 
on the strength of our partnership with NOAA and its predecessor 
organizations since 1958, along with NASA's successful history of 
spacecraft and instrument development, we are looking forward to the 
successful completion and launch of the GOES-R series.
    I would be pleased to respond to any questions you or the other 
Members of the Subcommittee may have.

                  Biography for George W. Morrow, Jr.
    George Morrow is the Director of Flight Projects at NASA/Goddard 
Space Flight Center and has served in this position since September 
2007. He is responsible for the day-today management of the more than 
40 Space and Earth Science missions in formulation or implementation at 
Goddard as well as the coordination of the Earth Science Technology 
Office and the Advanced Concepts and Technology Office.
    Mr. Morrow began his career at Goddard in 1983 in the Space Power 
Applications Branch as the Lead Spacecraft Battery Systems Engineer. He 
led the design, fabrication, and test efforts for flight battery 
systems for all Goddard projects including the Earth Radiation Budget 
Satellite, LandSat, the Cosmic Background Explorer, the Gamma Ray 
Observatory, the Upper Atmosphere Research Satellite, and the Hubble 
Space Telescope (HST).
    From November 1988 to April 1994, Mr. Morrow served in various 
increasingly responsible systems engineering and observatory management 
positions in the HST program in support of the first HST Servicing 
Mission. From April 1994 until May 1997, he was the Deputy Project 
Manager of the HST Flight Systems and Servicing Project. He oversaw all 
activities within or outside NASA which affected program cost, 
technical reliability, and schedule. Mr. Morrow served as the Deputy 
Associate Director of Flight Projects for HST from May 1997 until 
January 1998.
    In January 1998, Mr. Morrow was assigned as the Earth Observing 
System (EOS) PM (later named Aqua) Project Manager. He was responsible 
for all aspects of the development, test, and launch of the $900M EOS 
PM Observatory, which included direct management of eight complex 
science instruments--two of which were contributions from foreign 
entities (Japan and Brazil).
    In February 2001, Mr. Morrow left government service to become the 
Vice President and Division Manager of the Aerospace Engineering 
Division at Jackson and Tull, a privately held aerospace company in the 
Washington metro area. He returned to Goddard in March 2003 as the 
Deputy Director of Flight Projects but served until April 2004 as the 
Acting Associate Director of Flight Programs and Projects for EOS. In 
this acting capacity, he was responsible for the management of six 
complex missions in development and 11 operating missions.
    Mr. Morrow received the NASA Exceptional Service Medal in 1994 and 
the NASA Outstanding Leadership Medal in 2006. In addition, he is the 
recipient of numerous NASA and Goddard Group Achievement and Special 
Act awards. Mr. Morrow received a Bachelor of Science degree in 
Chemical Engineering from the University of Virginia and a Masters of 
Engineering Administration degree from George Washington University.

                               Discussion

    Chairman Baird. Thank you very much. We have been joined by 
Mr. Ehlers. Dr. Ehlers, thank you for joining us here. I will 
recognize myself for five minutes and then we will proceed and 
alternating with sides.
    If one had not listened closely to Mr. Powner's testimony 
or read the GAO report and one then listened to our friends 
from NOAA and NASA, one might say it sounds like the program is 
going pretty great. The problem seems to be that we are 
substantially over budget. We have cut by more than half the 
numbers of instruments that were expected to be placed up. The 
data is to come to us slower and we are very much delayed and 
at some significant risk of having a gap in coverage that my 
colleague Mr. Inglis alluded to. I therefore feel sort of a 
conundrum because on the one hand, I am inclined to say what 
the heck happened, how did we get here, and I think someone 
needs to ask that. At the same time, I also want to focus on 
where we go from here, and my problem is, the second question, 
I have lack of confidence in the answer because the first 
question is so problematic, and I also am told by Committee 
staff--as you know I am new to this committee, I served on it 
before but not chaired it--that we tend to get this information 
of things not going well only when the Committee asks GAO and 
GAO reports, that it has not been the practice of NOAA and NASA 
to come to the Committee proactively and say we are having some 
troubles and here is what we are doing about it. I will tell 
you, I would like that to change. If you were having 
difficulties, we need to know about it, and if you are having 
discussions about changes in direction of the partnership or 
the mission, we want to know about it. We don't want to hear 
about it secondhand. We don't want to have to send the GAO out 
to follow up on this and we want to know about that, and I want 
that to be for the record and I will insist on that.

                            Budget Overruns

    Mr. Inglis said quite rightly, this is a lot of taxpayer 
money. Taxpayers put it in common sense and they say look, if I 
go to the car dealer and the car dealer says I am going to sell 
you a car for a certain price and you can pick it up tomorrow 
and these are the features and you come tomorrow and the car 
dealer says it will be ready actually a year from now, maybe, 
and the features we agreed on won't be there and the price has 
doubled but write the check, the taxpayer says are you kidding 
me, expletives left out purposefully. Why shouldn't the 
taxpayer say that? Why shouldn't the taxpayer say how is it 
that we keep writing checks for projects that come in late, 
that cut the services and don't meet their expectations?
    I want to start with that question because that is what I 
think the taxpayer would want to know. That is not an easy 
question. I acknowledge that.
    Ms. Kicza. I would like to take that one on if I----
    Chairman Baird. Good for you. I admire that.
    Ms. Kicza. What I would like to start with is a discussion 
of cost growth that is overruns and contracts versus changes in 
cost estimates. Now, in the charter for the hearing you saw 
three different cost estimates and I would like to talk about 
at what time those cost estimates were made and what was the 
status of the program at that time, you know, recognize at this 
point, we don't even have the spacecraft or the ground system 
contractor on board. In 2004, we had an initial estimate for 
the GOES-R system of $6.2 billion. At that point we had just 
completed 11 low-cost concept studies. We were looking at a 
potential architecture of anywhere from three to eight 
satellites so we were very early in the stages of formulating 
the GOES-R architecture. In the NASA parlance, it is like phase 
A concept studies. So at that point you have, 2004, a $6.2 
billion estimate for the GOES-R program. We provided a second 
estimate in 2006. At that point it was $6.96 billion, and by 
that time we had completed three more in-depth studies with 
three different contractors and we were solidifying what the 
architecture would actually look like and we were beginning to 
see more realistically what the costs of the architecture would 
be, what the requirements of the system were and having a sense 
of what kind of budget was affordable. So that is 2006 we were 
at $6.96 billion.
    When we came to the Congress with that number, we said this 
is where we are right now and here is what we have yet to do. 
We have to complete a program estimate and subject it to 
independent cost analysis. In 2007, we came to the Congress 
with an estimate of $7.67 billion. That was the estimate after 
we had subjected the program to thorough independent review, 
then a bottoms-up program estimate and subjected that to 
independent analysis and did a reconciliation process. That was 
in 2007 at $7.67 billion. That is where we currently are right 
now and that cost estimate reflects the most probable cost. So 
when you refer to cost overruns, when I think of cost overruns 
I think of contracts awarded, cost overruns happening that we 
had estimated and we were wrong on. For the GOES-R program, we 
are still at the beginning and we are trying to solidify what 
is the right cost estimate, and as----
    Chairman Baird. Okay, but if you come to us and say we are 
working on a package and we work with you and we say this is 
what the package ought to entail, this is the instrumentation, 
these are the dates, and you give an estimate and then you come 
back--I understand estimates are not an easy business but if 
the estimate is so far off, off in time, off in budget and off 
in instrumentation, I mean, the problem is you are saying oh, 
well, you know, yes, our estimate has gone up but so to your 
capacity has gone vastly down and your timeframe----
    Ms. Kicza. Yes, sir, yes, I acknowledge that, and when we 
were doing that we were communicating it. We were communicating 
the fact that we needed to----
    Chairman Baird. But my question is, how does such stuff 
happen? How do you miss it by so much? I want to say it is not 
rocket science. It is rocket science. We have a rocket 
scientist on this committee, two of them, but----
    Ms. Kicza. I think what I am trying to explain is, it is a 
normal process that you go through from early concept studies, 
moving to more detailed concept studies and preliminary designs 
and you begin to understand where the key risks are and you 
begin to reduce risk, which is what we have done in order to 
bring the program in at a cost which we believe is the most 
probable cost and one which we can deliver in the timeframe 
that we have indicated.
    Chairman Baird. I am going to recognize my colleague, Mr. 
Inglis. In a little bit I will get back to this issue and I 
want to hear Mr. Powner's take on this and give Mr. Morrow a 
chance to speak but I want to respect the time.
    Mr. Inglis. Well, thank you, Mr. Chairman, and I think it 
is very interesting. Your question shows us where we are with 
our constituents, doesn't it? On the whole financial mess we 
are in. You want to pound on what happened but you also want to 
pound on what is the solution so we are in the same spot, 
aren't we? Ms. Kicza, you have just helped me to understand a 
little bit better where we might be. It is sort of like, you 
know, if you are building a building, once you have got a 
contract, there are some costs that can change and usually 
contracts will allow the contractor to get more money if there 
is an unexpected increase in metal prices, let us say, or 
something like that. Otherwise the contractor eats it and they 
just lose profit and maybe lose their shirt on the building. 
But in the concept phase, what I am trying to figure out is, so 
we don't have a contract, I guess what I am hearing you say. We 
really don't have--and using the analogy of building a 
building, we don't have a contract yet.
    Ms. Kicza. Right now we do not have the spacecraft 
contractor selected and we do not have the ground system 
contractor selected. That is to happen in May and June of this 
year, respectively.
    Mr. Inglis. So tell me how it works. I think this is all 
affected by NPOESS, you know, I mean we are all sort of here 
but we are thinking NPOESS and so therefore we are worried 
about all that, and so you know, when you are building a 
building and using that analogy, sometimes the architect comes 
in with a dream building, unbelievably beautiful, and I guess 
it is just the strategy of the architect can either do that or 
show you the bare bones and then get you up basically sort of 
bait and switch you up or get you down. How does it work in 
government contracting? I mean, do people generally come and 
say gee, listen, we can build this super-duper thing for X 
billion dollars and then they walk you down from there or do 
they walk you up? What I am concerned about is we typically get 
walked up.
    Ms. Kicza. Okay. I am going to try to answer that although 
I am not quite sure. I think that when we laid out the 
requirements for GOES-R, we laid out a pretty aggressive scope 
for the program, and the contractors in their analysis designed 
and did preliminary costs on the scope that we asked for. At 
the same time, we were all learning the lessons of NPOESS and 
understanding where we were seeing significant cost growth in 
complex instruments. So it was a combination of understanding 
how much the scope that we were asking for actually would cost, 
given more detailed studies, and understanding how painful it 
can be if your technology is not mature enough to be moving 
towards flight. So both of those things were occurring. We 
reduced our scope, although I will tell you in nearly every 
case the GOES-R system that we are developing is superior to 
the GOES-N/O/P system that is current in terms of the 
resolution, in terms of the scope of view and in terms of how 
fast the products are going to be made available to our user 
community, how fast the data is coming down, much superior to 
the current systems of today. So I don't want to lead you to 
that it is just the same thing. It is actually vastly improved, 
and in fact, there are some geostationary lightning 
capabilities planned for GOES-R that we have not yet had which 
will provide significant advances in our ability to forecast 
extreme weather events. So it is a combination of recognizing 
how much the scope we were asking for cost and recognizing how 
much risk was involved in some of the more complex instruments 
that caused us to say we have to--we can't afford that much 
scope, we are going to reduce scope in order to make it 
affordable and we are going to reduce capabilities because it 
is too high risk and we cannot afford to not deliver these 
satellites on time.

                          Program Expectations

    Mr. Inglis. Our church recently built a building and the 
guy that was in charge of it said don't show a picture because 
once you show a picture, everybody is going to have in mind 
that that is what it looks like, and then what you realize is, 
you can't afford that and so then you reduce it and everybody 
has in mind that architect's rendering of the building and then 
they are disappointed. Is that what we are dealing with here, 
that you can have----
    Ms. Kicza. Yes, I think that----
    Mr. Inglis.--a really beautiful picture. I mean----
    Ms. Kicza. I think that we are very good at creating 
expectations and then when we realize, you know, what we can 
actually afford and what we actually build, it is less than 
what we had set out in terms of expectations, but I will again 
say it is more, it is more than what we are currently providing 
today with the GOES-N/O/P series.
    Mr. Inglis. Mr. Powner, do you agree with that kind of line 
that basically we are getting a lot better than what we have 
got now, we maybe showed the pictures too soon?
    Mr. Powner. I think clearly there is some information that 
will be quicker, that we are getting products quicker and there 
is some capabilities that it is better, but however, if we step 
back, we have reduced a lot here, okay, and let us start with 
the HES instrument, okay? And this is, the original scope of 
this thing was too large and that was flawed to start with that 
approach. HES, for instance, was going to provide things like 
this: Tornado warning lead time is very important. Currently it 
is 13 minutes on average. We were going to then have warning 
lead times up to an hour. That was the leap that we were going 
to take with GOES-R. Well, then HES went away, okay, to control 
costs, it was complex and all that so we are not going to get 
those warning lead times. So although there are some 
improvements, we have reduced a lot of capability here. That 
was the one sensor going away. Then we went from 68 products 
down to 34. There is a fundamental question, you know, how much 
better is it than legacy GOES and I think you are approaching 
legacy GOES capability in order to control costs. So the bottom 
line here is, we are spending $7.6 billion for two satellites, 
for something that is better than what we currently have but 
likely not much better, and we haven't awarded contracts yet so 
the key here going forward, there is still a lot of schedule 
and cost risk without having awarded the space and ground 
contracts.
    Mr. Inglis. Ms. Kicza, do you want to respond to that?
    Ms. Kicza. Yeah, what I would like to do is talk about the 
improvements with this imager capability with GOES-R. In terms 
of the imager, the Advanced Baseline Imager, four times the 
resolution, five times the coverage, twice the number of bands 
that we have with the current imaging capability and more 
coverage simultaneously. That is, we can look at the full disc 
and look at a picture of the disc, a smaller portion. With 
lightning detection, we now will--we will have continuous 
coverage of total lightning flash over land and water from the 
space looking down as opposed to from a single spot on the 
ground looking up. In solar and space monitoring, we will have 
a better imager and improved heavy ion detection and we are 
also adding low-energy electrons and protons, both very 
important for space weather prediction, and also for unique 
payload services of bent pipe services, getting information 
from buoys and tracked animals and such, higher data rates for 
environmental data relay and also to support search and rescue 
capabilities. So across the board our instrument capability is 
more robust. Yes, we have reduced capability in order to reduce 
risk and to bring the project in on time. I don't deny that. 
But in terms of the capability that we are bringing to bear, it 
is improved. Now, for the demanifested HES instrument, we 
worked very closely with the community to examine whether or 
not we should put a legacy sounder on versus using the ABI, and 
in fact, we brought over 50 representatives from a broad range 
of the community to discuss that and the various benefits or 
disadvantages of that and we collectively came to the 
conclusion that delivering the sounding products from the ABI 
was the better way to go. It did reduce some capabilities in 
some areas but the consensus of the community was that it more 
than made up in other areas because we were getting higher 
temporal sampling rates. So the decisions were made in order to 
be able to reduce risk, to deliver the system within the 
projected budget that I have discussed previously and to bring 
that to bear as rapidly as we can.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Baird. Ms. Edwards.

      Incorporating Recommendations and Preventing Future Problems

    Ms. Edwards. I think what I would like to focus on is not 
just kind of where we are but what prevents us from doing this 
all over again. I mean, we have essentially a doubling, almost 
a doubling in the projected cost of these satellites, and so in 
addition to knowing what the improved capabilities are with the 
reduced system, I want to know what are the capabilities that 
we lose because it seems to me that at some period of time we 
are going to need those capabilities and then we are not 
getting them in this next phase. I also--I am also very 
interested in looking at the lessons learned in the contracting 
process because essentially cost plus contracts have been 
awarded, were awarded for the instrumentalities and yet the 
technology that we get suggests that we could have done a fixed 
price contract and gotten more bang for the buck, and so for me 
that is perhaps a lesson learned. In terms of the GAO 
recommendations, I want to know the three key recommendations, 
where the two agencies are in terms of meeting those 
recommendations going forward because I think it is tough to 
argue--not to argue to the public about the great benefit of 
the work that you do and the need because I think there is no 
one on this panel that doesn't believe that we need the kind of 
satellite coverage for weather projection and prediction that 
is important to saving lives and preserving commercial 
interests and protecting communities. But we can't do it at any 
cost and especially in this kind of environment. And so if you 
could please address those concerns, and I am going to be one 
on this panel who says we understand that with science there is 
a lot out there that we don't know and that with technology 
development that things can happen but, you know, $7 billion to 
$11 billion, that is a lot of stuff happening, and so it raises 
a concern for this Member that we have to get better at 
communicating along the way so that it doesn't feel like a 
surprise attack when we have gone to such severe cost overruns, 
and I do think that there are cost overruns and it may have to 
do with the way that these contracts are broken up and the 
stages at which you evaluate so that you are essentially not--
you know, you don't think that you are buying the Cadillac when 
in turns out that you are getting a Ford. The Ford is going to 
run, it will be just fine but not when you thought you were 
buying a Cadillac and the price is reasonable.
    Ms. Kicza. I am going to address the responses to the 
recommendations and I will hand it to George to talk about 
fixed price versus cost plus. In terms of the recommendations, 
the GAO recommended that we conduct an integrated baseline 
review when we make significant changes to our instrument 
development. In particular, they were concerned that we had not 
done an IBR on the ABI when we moved a segment of the work to 
the right. In fact, we have done two integrated baseline 
reviews on this instrument in the past in 2004 and 2007 and we 
expect to do another one this fall and have it completed before 
the end of the year. The GAO was concerned about our formal 
evaluation of cost variances against the instrument contracts, 
and I discussed the process we have had to date and the fact 
that we will be changing that process. So we see all the 
variances, both cost and schedule. We talk specifically about 
those that need further clarification and going forward we will 
document the results of those regularly scheduled monthly 
discussions as well as any actions going out of it so that we 
see the long-term trends relative to the variances that are 
occurring. And then the third one was with respect to plans for 
reinstating the advanced capabilities, and as I have discussed 
for the HES activities, we are actively going through a request 
for quote process to solicit private industry on what 
capabilities they can bring to bear and we are exploring the 
possibility of international collaboration with our partners in 
Europe who are also looking at advanced sounding capabilities. 
We may be bringing their capabilities to bear, and what we will 
be doing is documenting our plans in a formal transition 
planning document to transition that new capability into an 
operational capability. So I hope that answers the questions 
relative to your concerns about the GAO recommendations and I 
will turn it over to Mr. Morrow to talk about fixed price 
contracts versus cost plus.
    Mr. Morrow. I think as you know, we have used fixed price 
contracting in many areas where the complexity of the system 
allowed that to occur or where we were rebuilding sensors or 
spacecraft bus requirements that were very similar to what we 
had done on a previous mission and those types of things. Also, 
we use fixed price contracting where the instrument-to-
spacecraft interfaces are very well known and aren't 
technologically pushing the state-of-the-art. GOES-R is a case 
where the instruments, the primary instrument, ABI, is very 
much advanced beyond the imager that was on the legacy GOES-N/
O/P series. The detector systems, the optic systems are much 
advanced and there was a lot of technical development that 
needed to be done there, and that is why on ABI, and in fact, 
the other instruments on GOES-R, we have prototype model 
development as part of the basic contract. Also, because the 
instrument capability and the instrument data rates and the 
communication data rates between GOES-R and the ground and the 
ground and GOES-R are much greater than what had been there in 
the previous series. The spacecraft bus was, while many 
components were like what we would fly on another mission, the 
spacecraft bus architecture was a very much new development and 
the interface to the instruments was a new development.
    Ms. Edwards. My time has expired, and so Mr. Chairman, I 
don't know if our panelists would please put the responses to 
those questions in the record and respond to the Committee. I 
would appreciate it.
    Chairman Baird. We will probably have another round as 
well, Ms. Edwards. If you can stay for that, we will certainly 
give you an opportunity to follow up.
    Mr. Neugebauer would be next but he is not here, so Dr. 
Ehlers is recognized.

                   The Need for Better Cost Estimates

    Mr. Ehlers. Thank you, Mr. Chairman. Sitting here, I 
developed a bad case of deja vu, largely because I used to 
chair the rough equivalent of this committee, subcommittee, and 
we went through much the same thing as NPOESS to the point 
where the Chairman of the Committee called a number of 
Committee Members in and we ended up with a rather marvelous 
shouting match. But we saw the danger signs far before NOAA did 
and eventually it ended up that it got so bad that there had to 
be a recertification process which slowed everything down but 
should never have happened. But what really concerns me first 
of all, we are hearing essentially the same thing and I had 
hoped that NOAA would have learned something from that and not 
made the same mistakes.
    Secondly, the satellites are marvelous, they are wonderful 
and I deeply appreciate all the information we get. I almost 
get addicted to the Weather Channel. I look at it every time I 
go to fly somewhere and correlate the weather with my trip in 
deciding whether I want to move a day ahead or a day back or 
whatever. They are all very good stuff. But what really 
concerns me, in NPOESS they had a number of detectors which I 
thought were outstanding and they were removed because we could 
no longer afford them, and I think the capability of NPOESS is 
severely hindered or hampered by removing those. Now I see us 
doing the same thing and I wondered in the case of NPOESS and I 
wonder about this, can't we come up with better cost estimates? 
Can't we as a Congress come up with a better method of funding 
projects such as this so that we keep tabs on it? If we are 
going to have to spend more money, we put that in the next 
year's budget as rapidly as we can and so forth. I think it is 
a shared fault here. I don't think NOAA has handled it properly 
but I also think we do not handle the appropriation process 
properly for these major projects. If this were part of the 
military budget, of course, there is no problem because 
everyone votes for more money for the military. Not everyone 
will vote for more money for the weather satellites, 
unfortunately. So this--I have got to get this deja vu off my 
chest. What is wrong with NOAA? Why can't they get it right the 
first time? Why remove systems? You should have known what they 
cost to begin with? And why go through this charade of going to 
all the trouble of saying we are going to put this on, then 
designing it and part-way through you just say sorry, we can't 
afford it, jerk it out. Comments from anyone?
    Mr. Powner. Congressman Ehlers, I think we can start with 
both NPOESS and GOES that were too optimistic with the leap 
forward. If you look at NPOESS and the one instrument there 
that is still causing all the problems is VIIRS. That thing is 
still in testing. That is why schedules are being pushed out. 
It is still the major driver of NPOESS. You know, here I think 
what the NOAA folks are attempting to do is to reduce that 
complexity so we don't have another VIIRS issue on GOES, okay, 
and that is probably a good thing to reduce the complexity but 
we just need to be realistic too with now what we are 
delivering at what cost.
    Mr. Ehlers. Well, I guess as a scientist I would respond 
and say I was always delighted when I had complex experiments 
to do because it meant I was going to learn more, and I don't 
think you should be afraid of complexity. It seems to me that 
any good engineering program would take care of that and give 
you the same reliability as a less complex system if you built 
it right and use it right.
    Ms. Kicza.
    Ms. Kicza. Yeah, I am afraid I have to take issue with you 
because you are saying GOES-R is NPOESS all over again and it 
most certainly is not. What we have done is, we have 
incorporated the lessons learned from NPOESS. We took stock of 
the effort, and you have to realize, NPOESS is several years 
down the line from where GOES-R is now and we are making the 
tough decisions now, and the work that has been done in the 
last two years to not only put in a rigorous cost estimate to 
make scope and budget align with one another, that is done 
before we ever start the major contract efforts. That was not 
done with NPOESS, okay? It is very different.
    And then secondly, over the course of GOES-R we have 
maintained a rigorous independent review process that are 
outside of the program who are coming in on an annual basis to 
evaluate where we are and whether or not we are doing the right 
thing and challenging us. With GOES-R, we have established a 
budget reserve that is the most probable cost--again, before we 
ever start the major contracts. We have completely restructured 
the acquisition strategy for GOES-R. We were on a track to have 
it much like NPOESS where we would have a prime contractor who 
would be doing the instruments. We completely restructured that 
and have put the government in charge of every major element in 
the system, the spacecraft, the ground system, all of the 
instruments and in fact the government is doing the systems 
integration. It is very different from NPOESS and I challenge 
the fact that we are saying that it is NPOESS all over again. 
Thank you, sir.
    Mr. Ehlers. Well, I am pleased for that clarification but 
the point I was trying to make is that removing functionality 
after investing quite a bit of money in it is, I don't think, 
good. First of all, you build expectations in the user 
community and the scientific community about what they are 
going to be able to do with the information, and secondly, it 
is the wasted effort at NOAA, and perhaps at some other 
agencies. I am basically trying to make the same point Mrs. 
Edwards made about that we are deeply concerned about the loss 
of functionality. If we are going to spend that much money 
sending something out there, let us make sure what we send up 
there is really going to do the job that we wanted done in the 
first place.
    Ms. Kicza. I respect that, sir, and what I had indicated is 
that in developing the spacecraft, we are designing it in such 
a way that we can add capability if and when we think we are 
ready to and so the ability to put an advanced sounder on the 
GOES-R system when we are convinced that the technology is 
ready and we have the funding to do so, then we will be able to 
do that.
    Mr. Ehlers. I yield back.
    Chairman Baird. Thanks, Mr. Ehlers--Dr. Ehlers.
    Mr. Powner, there has been a number of comments made and I 
wonder if you have a desire to respond. One particular question 
is that it sounded like an earlier statement made about the 
willingness of the review group to suggest that while we will 
sacrifice one instrument in favor of another in exchange for 
more rapid download rates, and yet we are also hearing that the 
download rates may themselves also be compromised. Is that of 
concern?
    Mr. Powner. Yes, there is several concerns that I think our 
report laid out. There was some concerns about the accuracy of 
products not being comparable to legacy but I do acknowledge 
what Ms. Kicza is saying. There is certain products that will 
be better. A couple things going back to your original question 
on, you know, whether we have a contract or whether we have a 
cost estimate and whether we are overrunning or whether we are 
changing estimates. This is all semantics. I mean, what we are 
getting into here is whether you have got an active contract 
and you overrun, it costs the government more money, where you 
have an estimate and you are increasing it. We are not going to 
spend less than that estimate. That has never happened. So the 
bottom line is, we are spending more money so let us just 
acknowledge that. I think the key thing going forward on the 
fixes is that we get better estimates. I mean, that was the 
basis of some of our recommendations where we have very 
detailed reviews of the baselines of these programs because 
that is your basis for your estimate going forward. Now, we are 
dealing with the instruments right now and we hope that that 
discipline that the program is instilling on some of those 
instruments, following some of our recommendations, will then 
be applied to the larger spacecraft and ground segments. That 
is what we really need going forward. We need that discipline 
where we have sound estimates and then on top of that many of 
our recommendations, we are in the weeds here on some of these, 
but what it is all about is, it is really staying on top of the 
contractor. So when we see a slip on cost and schedule, we are 
on them and we are effectively managing those risks. So that is 
really where we are trying to go to be helpful with this 
program moving forward.
    Chairman Baird. Do you feel like the kind of changes Ms. 
Kicza has acknowledged in response to Mr. Ehlers' question 
addressed those issues you just raised?
    Mr. Powner. Yes, I think her--the way they are planning to 
address those recommendations, if in fact there is follow-
through on that, we feel comfortable with that.
    Chairman Baird. I should say parenthetically, Mr. Ehlers, I 
serve in the Coast Guard Committee as well and we have the 
Deepwater program there which was certainly not a model of 
procurement, to say the least.

                     Meeting Budgets and Deadlines

    So we have talked a little bit about how we got here maybe. 
The next question is, where do we go, and the two fundamental 
questions is, how are we going to afford this, where does it 
fit into the budget, the NASA budget and the NOAA budget, and 
two, are we going to hit the mark in terms of time? Because we 
are in a bit precarious situation.
    Ms. Kicza. Okay. In terms of the budget, the budget that 
the Congress has approved is the budget that we believe is the 
most probable cost and so we have confidence in our ability to 
bring the system in within that budget. In terms of the planned 
launch date, with the spacecraft protest it does have 
implications for our launch. Nominally--I should let George 
answer this. Nominally, it is 72 months for a spacecraft 
development of this complexity. If we stick to that nominal 
timeline as we move to the right from a planned April award, we 
move to the right on the projected launch date and so we are 
definitely concerned about that. Both NOAA and NASA are aware 
of the implications and are working to address that as 
effectively as we can through the contract award process.
    Chairman Baird. Let me drill down a little bit on the 
nominally question. There is a bunch of research in countless 
areas of engineering that people are overly optimistic and set 
dates. We have seen this obviously with the budget on this 
project to some extent with the timeline. Does ``nominal'' mean 
based on real-world actual practice experience, we are within 
somewhere in the middle of the normal curve there, that is our 
most probable estimate or is it some optimistic thing that we 
are then going to hear?
    Mr. Morrow. So let me comment on that. Mary mentioned the 
nominal 72 months for a spacecraft development of this type, so 
we at NASA have gone back into our actual, you know, what it 
actually took database on similar projects, and the 72-month 
agreement between NASA and NOAA on the spacecraft development 
comes from that database. We may find when we actually award 
the spacecraft contract and go to an integrated baseline review 
that the spacecraft contractor and the contract schedule may be 
somewhat less than 72 months and this goes to the point of 
creating baseline--adequate baselines. What we want to do at 
NASA and in conjunction with NOAA on GOES-R is to conduct 
integrated baseline reviews for each of our contracted efforts 
that are not optimistic but hold the contractor's feet to the 
fire to perform efficiently. In addition to that, we want to 
come back using our historical database and independent cost 
estimates from outside entities outside of NASA and NOAA to 
develop a program baseline that allows us the latitude for 
unforeseen things that occur in the contract development, and 
so that part of what we have really worked closely together on 
GOES-R to do, is to develop that program baseline that allows 
that margin between, you know, what we actually are signing up 
to deliver the system for and on what schedule and the margin 
between that and what the contractors have signed up to do so 
we can hold their feet to the fire, monitor their performance 
and keep things moving.

                    The Partnership of NASA and NOAA

    Chairman Baird. Two more very quick questions. One, is it 
your feeling that the partnership now as it exists between NASA 
and NOAA on this project is now functioning properly and is 
likely to continue in a constructive manner?
    Ms. Kicza. From a NOAA perspective, absolutely yes.
    Mr. Morrow. And from my perspective, yes, that is--some of 
my points were that we have a lot of NOAA people on site at 
Goddard and we are working arm and arm with each other.
    Chairman Baird. I have had a lot of relatives in my house 
before. That doesn't mean it is always----
    Mr. Morrow. No, no, no, it is not the same thing here.
    Chairman Baird. Mr. Powner.
    Mr. Powner. You know, last--October of 2007 was the last 
hearing the Subcommittee held and I think we raised that issue 
about the working relationship. We see that improved based on 
our attendance at certain meetings and those things.
    Chairman Baird. Finally, I don't have enough time to have 
you answer it but I do not understand why Moore's Law doesn't 
apply here. I mean, I can get a 20-megabyte digital camera now 
whereas three years ago it was about a two-megabyte camera. The 
capacity of a Nikon D3 blows your mind in terms of what it can 
do. Anyway, it is a separate issue. But I understand it is a 
different--it is a bit apples and oranges but the capacity of 
what we can do electronically and in imaging systems in the 
commercial realm is remarkably improving, and what we are 
saying here is that we don't seem to have much comparable. You 
are tempted to send a Canon G9 into space and say send us back 
the pictures and you get some pretty good resolution.
    Mr. Inglis, is he coming right back or--okay. Then I will 
recognize Dr. Ehlers and then we will----

                            Program Funding

    Mr. Ehlers. Thank you. I just want to pursue one thing 
here. As we are pointing fingers, I am interested in how many 
fingers should be pointed at the U.S. Congress. Did Congress 
provide sufficient funding in that 2009 Omnibus bill for you to 
continue your work on this at the appropriate pace? Is lack of 
funding going to slow down the project and create other 
problems? And I am interested in--well, I think you have 
already answered that question. I was curious about some of the 
details of the original GOES-R program and how it is being 
proposed now. So if you an answer the first part and then say a 
few words about the last.
    Ms. Kicza. I will say that for the 2009 budget, we are very 
appreciative and that will allow us to proceed on the pace that 
we had anticipated proceeding on and so we are very thankful 
for the Congress's support for the 2009 budget.
    Mr. Ehlers. Let me just interrupt you there. Do you think 
it would be beneficial if we changed our budgeting system for 
these major projects, and it is not just satellites, it is not 
just rockets, it is things such as the new accelerators that we 
built, particle accelerators we build occasionally. Wouldn't it 
be better if we----
    Ms. Kicza. If it wasn't year to year as more of a----
    Mr. Ehlers. Continuing budget.
    Ms. Kicza. The stability would be beneficial, yes, sir.
    Mr. Ehlers. I have always felt that way but it is pretty 
hard to persuade people around here.
    Ms. Kicza. Yes, sir.
    Mr. Ehlers. Okay.
    Ms. Kicza. And in terms of the second request and that is 
sort of a chronology of the changes in the GOES-R program, I 
would be happy to take that question for the record and provide 
you a brief synopsis of what has occurred over the last two to 
three years and the rationale for the changes that were made.
    Mr. Ehlers. Okay. And jumping back to the first question, 
what about for fiscal year 2008?
    Ms. Kicza. In fiscal year 2008, we sustained a budget cut 
of about $44 million, if I recall, and we as a result of that 
delayed the planned launch date for the GOES-R, the first GOES-
R by approximately three months.
    Mr. Ehlers. And when you delay that way, do you really save 
a lot of money or is there----
    Ms. Kicza. No, it does not save money in the long run 
because when you move everything to the right, your life cycle 
cost increases.
    Mr. Ehlers. Yeah, that is what I thought. So it doesn't 
help you at all when we mess up the budget process?
    Ms. Kicza. That is correct, sir.
    Mr. Ehlers. Maybe I can get that in writing and show it to 
my colleagues. I will yield back at this point. Thank you.
    Chairman Baird. Mr. Ehlers, I will think out loud in a 
dangerous way here but there might be some merit to pursuing 
precisely that in a joint hearing with the Appropriation 
Committee and the Science Committee at some point where we talk 
about this. There are these major projects that span decades in 
some cases and we give you this incredible uncertainty and then 
when we miss our appropriations date, as we do almost always 
now, it is fun for us to sit here and hammer you guys because 
you don't make your dates but unfortunately you are not able to 
ask us why we didn't make our dates, but that is another topic. 
But we might want to pursue that very issue of some form of 
more reliable and longer term project appropriations. I think 
it makes an awful lot of sense.
    Ms. Edwards.
    Ms. Edwards. Well, Mr. Chairman and Dr. Ehlers, I certainly 
share that view.

    Complying With Recommendations and the Responsibilities of NOAA 
                                and NASA

    Let me just follow up again, Mr. Powner, just to be clear 
that you are in agreement that NOAA and NASA Goddard are on the 
process now in terms of complying with some of the 
recommendations that have been made by GAO?
    Mr. Powner. Yes, I believe they have agreed to address the 
recommendations. I think a couple things here. One are these 
baseline reviews. The more rigor we can get in the baseline 
reviews where they are very detailed, they will ultimately 
result in better estimates so it is not only just on the ABI 
instrument that we are interested in but that is something we 
will be looking forward to ensure that these detailed baseline 
reviews are done on the, you know, overall spacecraft and 
ground segment contracts. So we are hopeful. I mean, they need 
to still follow through on that.
    The other item is, we have seen much improvement with the 
use of earned value metrics to oversee contractors' performance 
so that we see variances where they are not--you know, what is 
delivered isn't matching up to what we are paying for, you 
know, those types of metrics. And the more we can really stay 
on the contractors with those metrics, you are going to be able 
to monitor performance and hopefully stay closer within those 
estimated costs and schedules.
    Ms. Edwards. Great. Thank you. And then I am just--I am 
curious as to whether given where we are right now and what I 
think is, you know, sort of improved kind of management 
oversight relationship between NOAA and NASA that we shouldn't 
have concerns--I guess I am asking, we shouldn't have concerns 
about the relative split between NOAA and NASA in terms of its 
management functions for the project?
    Ms. Kicza. I don't think so. I think that what we have done 
is, we are capitalizing on each others' strengths and so we are 
applying our competencies to what we do best, and that is 
reflected in the organizational construct for the GOES-R 
program.
    Mr. Morrow. And I fully agree. I mean, I think we have done 
that very well here.
    Ms. Edwards. And then let me just inquire as to what will 
then be a gap in coverage that has been identified by GAO. What 
is the work-around plan for that?
    Ms. Kicza. Actually there are a couple of work-arounds in 
the event that we do have a gap. Recognize that right now, you 
know, it may turn out that the operational satellites last 
longer than they are designed for so we could have continued 
operation there. If we didn't, we can fall back to the older 
satellites because we eke out of the older satellites every bit 
of instrument capability that we can, and then we have beyond 
that a contingency plan where we can call on European 
capabilities in the event that we have a gap and then can apply 
their own orbit spare to help support our gap issues.
    Ms. Edwards. And is there ongoing work in terms of 
developing and refining this contingency plan? Because it 
does--I mean, we should be realistic here. You know, there is 
probably going to be a gap.
    Ms. Kicza. There is--there are existing agreements in place 
and in fact just last week the Director of EUMETSAT\1\ and I 
spoke to this about this--the fact that these agreements are in 
place and used, so they are active.
---------------------------------------------------------------------------
    \1\ EUMETSAT: European Organization for the Exploitation of 
Meteorological Satellites.
---------------------------------------------------------------------------
    Ms. Edwards. Thank you. And then lastly, without going into 
the details of the spacecraft contract, have these contractors 
been asked to take--potential contractors asked to take into 
consideration the fact that they are going to get the award, 
the award is going to be made in April and what does that mean 
to their projections about the timeline?
    Mr. Morrow. In our reevaluation process, we went back 
through the contractors' proposals. The contractors themselves 
have not yet been engaged in that process by the way the 
process is designed and so once we get to the point of making 
that selection and award, then we will go into those 
discussions with the contractors. Now, the contractors have 
extended their proposals. They have been asked to extend their 
proposals to accommodate the process that we are in and they 
have done that.
    Ms. Edwards. All right. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Ms. Edwards.

                          The Role of Congress

    I want to give you the opportunity to follow up on the line 
of questioning that Dr. Ehlers was pursuing, and that is, what 
does Congress or the Administration need to do differently to 
help make this a success? We want this mission to succeed. We 
don't want to have a hearing some time from now with a huge gap 
and significant risks and costs and that is no fun. I mean, it 
gets you press coverage but who cares. What I want to hear is 
what we can do to make this work. How do we do that? What can 
we do better?
    Mr. Powner. Even more frequent oversight hearings such as 
this. There was a comment made that there is action on GAO 
reports. I will tell you, there is a lot more action when there 
is an accompanying hearing with the GAO report, a lot more.
    Ms. Kicza. I will say that my immediate thought when you 
asked the question was simply do the job that you have been 
entrusted to do and that is to provide oversight, to work with 
the Congress to appropriate funds in a timely manner.
    Mr. Morrow. I really agree with Mary. I think that is the 
most important. That stable baseline to us is very important.
    Chairman Baird. Ms. Kicza, you mentioned earlier, I think, 
or maybe Mr. Morrow about an annual review of, it sounded like 
an independent board of advisors, if I remember. Is annual 
enough, given the complexity of it and how things----
    Ms. Kicza. Well, it is actually more than that. We employ 
independent review at all levels of the program, at the 
technical level, at the mid-management level and at the most 
senior level.
    Chairman Baird. So that is ongoing?
    Ms. Kicza. That is ongoing. At the most senior levels, we 
tag up annually and in advance of major decision milestones.

                           Benefits of GOES-R

    Chairman Baird. One last question for me and then I will 
recognize Dr. Ehlers and Mr. Inglis if he returns. It is a 
substantial cost to the public. What is the benefit of having 
this instrument?
    Ms. Kicza. Well, I think you said it most effectively in 
your opening remarks. It literally impacts every American every 
day. It is critical to predicting severe weather, oftentimes 
rapid onset of severe weather. It is absolutely essential to 
predicting hurricane tracks. So it is an essential element in 
our observational suite of capabilities.
    Chairman Baird. Has anyone put a dollar estimate on the 
value of this?
    Ms. Kicza. Yes, sir, we do have analyses about the economic 
impact that the geostationary capability brings to bear and I 
can take that question for the record and provide you 
additional information.
    Chairman Baird. I think that is really essential because at 
some point on the one hand we want to do everything we can to 
stop cost overruns or inaccurate estimates. We will quibble 
about the semantics separately but we want to hit the mark in 
terms of what our budget is. But we also need to understand 
that there is benefit to the public from this instrument, not 
just abstract academic benefit but practical, real world. Is 
your loved one going to arrive safely on the airplane, will 
your crops be pelted by hailstones or not, will your home be 
flooded, will you be safe taking that camping trip, you know, 
all of that comes from this. I am told that a Member of 
Congress was--maybe this story applies to you, Dr. Ehlers, and 
I should let you hear this. The Accu-Weather story, is that 
your story? I was told that someone was asking about why we 
need to put these weather satellites up, can't we just rely on 
Accu-Weather. The joke, of course, is that Accu-Weather gets 
its information from these weather satellites, and we don't 
want to go back to the Farmer's Almanac and that's what a dark 
period in the lack of these--I mean, we will obviously have 
better stuff than that, but the point is, this is very 
important. We want to work with you to solve this.
    Does Mr. Inglis or Mr. Ehlers have any further questions or 
comments? I will recognize Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, in light 
of your comments, as an addict of the Weather Channel, I 
certainly agree with your comments about the value of what we 
do, but for me it is just my convenience in traveling and 
settling traveling plans. There are a lot of other people who 
use this for many very important reasons, industries, 
businesses, et cetera. So there is no question about the value. 
I am just curious, what other nations put up weather satellites 
and what capability do they engineer into theirs?
    Ms. Kicza. Well, the Europeans put up weather satellites, 
the Japanese put up weather satellites, the Chinese have 
weather satellites. It is fairly prevalent. Our capabilities 
are roughly comparable, and in fact, for the European satellite 
system, we in fact deliver many instruments that they employ on 
their satellite capabilities. So yes, there is a very prevalent 
weather satellite capability throughout the world and the 
community is very closely linked.
    Mr. Baird, I would also like to provide an additional 
comment relative to the return on investment. One of my staff 
provided me a note. One-third of the U.S. GDP is impacted by 
the weather and climate sensors that NOAA brings to bear.
    Chairman Baird. So we need to get this right, and we 
appreciate your work on that.
    Mr. Ehlers. Maybe that is the third that I have investments 
in. There is some reason it is going down.

                                Closing

    Chairman Baird. With that, I want to thank our witnesses 
and my colleagues on the Committee. The record will remain open 
for the customary two weeks so that people can offer additional 
comments and I thank the witnesses for their expertise and 
their hard work. We will have further oversight hearings of 
this to monitor your progress and the achievements and look 
forward to watching this bird launch on schedule with the most 
capable package possible at the moment.
    Thank you very much, and the hearing stands adjourned.
    [Whereupon, at 11:24 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mary E. Kicza, Assistant Administrator for Satellite and 
        Information Services, National Environmental Satellite, Data, 
        and Information Service, National Oceanic and Atmospheric 
        Administration, U.S. Department of Commerce

Questions submitted by Chairman Brian Baird

Q1.  During the hearing, we discussed the importance of identifying a 
monetary value of the GOES-R program in light of its substantial cost 
to the taxpayer. Please provide these analyses of economic impact that 
the GOES-R capabilities will provide.

A1. A number of studies have been conducted to identify the economic 
benefits of GOES and GOES-R. Summaries of the economic benefits and 
links to the supporting studies are available at http://
www.economics.noaa.gov/?goal= weather&file=obs/satellite/goes. Two 
reports that address the benefits associated with improvements from 
GOES-R are:

        <bullet>  ``An Investigation of the Economic and Societal Value 
        of Selected NOAA Data and Products for Geostationary 
        Operational Environmental Satellites (GOES)'' conducted by 
        Centrec Consulting Group LLC, available on-line at: http://
        www.centrec.com/climate<INF>-</INF>weather.htm

        <bullet>  Economic Statistics for NOAA, April 2006, Fifth 
        edition, available on-line at: http://
        www.publicaffairs.noaa.gov/pdf/economic-statistics-may2006.pdf

    The GOES-R series of satellites will provide a greater range of 
data at a higher resolution than NOAA's current geostationary 
satellites. GOES-R will also provide additional societal and economic 
benefits including:

        <bullet>  enhanced hurricane predictions to mitigate disaster 
        losses;

        <bullet>  lightning mapping to predict conditions that may lead 
        to severe storms, providing earlier warnings to the public;

        <bullet>  improved monitoring of thunderstorm and fog 
        development to augment the safety of surface, air and marine 
        transportation;

        <bullet>  more frequent and accurate information for commercial 
        transportation to enable them to avoid adverse weather 
        conditions resulting in reduced energy consumption;

        <bullet>  improved precipitation forecasts to enable more 
        efficient water management and agricultural decision-making; 
        and

        <bullet>  enhanced monitoring of climate change and variability 
        in the oceans, atmosphere, and on land.

    The 2007 Centrec study presented the following about the value of 
the GOES-R satellite system:

        <bullet>  In 2015, the combined annual value added from the 
        information from GOES-R series satellites for the aviation, 
        energy and agriculture industries, as well as recreational 
        boating, is expected to exceed $1.2 billion. Since GOES-R is 
        expected to be in operation from 2015-2027, the value of the 
        estimated combined benefits approaches $7 billion over the on-
        orbit life of the program's satellites.

        <bullet>  In addition, the enhanced information from GOES-R 
        satellite observations is expected to improve NOAA tropical 
        cyclone forecasting. This will enable more efficient evacuation 
        and protection of property in advance of storms, which is 
        expected to be valued at $450 million in 2015 (average of 
        $130,000 per U.S. coastline mile from Maine to Texas), for a 
        total of $2.4 billion from 2015 to 2027 (average of $690,000 
        per U.S. coastline mile from Maine to Texas).

    These valuations do not capture all of the sectors in society that 
would receive direct and indirect benefits of enhanced GOES-R data, but 
provides examples of how the GOES-R series of satellites is both 
important and beneficial to the Nation's social welfare, scientific 
advancement, and economic efficiency.
    The study, titled Opportunities and priorities in a new era for 
weather and climate services, by John Dutton\1\ and cited in the 2006 
NOAA Economic Statistics report identified that weather and climate 
sensitive industries, both directly and indirectly, account for about 
one-third of the Nation's GDP, $4 trillion in 2005 dollars, ranging 
from finance, insurance, and real estate to services, retail and 
wholesale trade and manufacturing. GOES-R will continue and enhance the 
current GOES capabilities for weather forecasting, storm detection and 
tracking, and warning by providing over twenty times more environmental 
information; a two-fold increase in image clarity; and, a fourfold 
increase in frequency of new observation data of the constantly 
changing atmosphere.
---------------------------------------------------------------------------
    \1\ Dutton, John A., Opportunities and priorities in a new era for 
weather and climate services, Bulletin of the American Meteorological 
Society, September 2002, volume 83, no. 9, pp. 1303-1311.
---------------------------------------------------------------------------
    The GOES-R Geostationary Lighting Mapper (GLM) instrument is the 
first ever operational satellite lighting detection system aboard a 
geostationary satellite. The GLM detects severe weather by mapping 
lighting strikes, both cloud to ground and for the first time, cloud-
to-cloud. Mapping cloud-to-cloud lighting strikes can be helpful in 
early prediction of severe weather systems. The 2006 NOAA Economic 
Statistics report indicates that lightning activity causes $4 to $5 
billion in losses each year in the civilian sector and that lightning 
has consistently been one of the top three causes of weather-related 
deaths in the country. Lightning kills between 50 and 70 people and 
injures hundreds more each year. By having the GLM capability on GOES-
R, NOAA will be able to provide warnings that will save lives from 
lightning hazards.
    GOES-R will also carry a number of the solar/space monitoring 
instruments that will provide significantly improved images and 
detection of approaching space weather hazards. These space storms 
endanger billions of dollars worth of commercial and government 
satellite systems by causing power surges in sensitive electronics that 
can impact system performance (e.g., degrade communication 
capabilities) or even end the life of the satellite, or threaten the 
lives of astronauts space walking. These storms also impact ground-
based power grids. Geomagnetic storms caused by energetic streams of 
particles and fields that originate from the sun impact the Earth's 
magnetic field, interact with the long wires of the power grid, and 
cause electrical currents to flow in the grid. These currents cause 
imbalances in electrical equipment, reducing its performance and 
leading to dangerous overheating. The power grid operators respond to 
warning by modifying the way the power grid is operated to maintain 
adequate power quality for customers and reserve capacity to counteract 
the effects of space weather. A geomagnetic storm in 1989 caused a 
``black out'' of the power distribution system for Quebec, Canada, and 
left six million people without electricity for nine hours at a cost of 
$300 million. With these solar/space monitoring instruments on GOES-R, 
NOAA's Space Weather Prediction Center will be able to significantly 
improve space weather forecasts for government and commercial satellite 
operators and for the communications and power generation industries.

Questions submitted by Representative Donna F. Edwards

Q1.  In response to program difficulties as identified in the 2006 GAO 
report, including a near doubling of projected program costs, NOAA made 
several key changes to the program as a whole. The newest GAO report 
identifies several program improvements since that time, but NOAA also 
eliminated two satellites and the Hyperspectral Environmental Suite 
(HES) program and pushed back the first launch date to December 2014.

Q1a.  What are the key improved capabilities the GOES-R program has 
with reduced system?

A1a. The restructured GOES-R system represents a significant 
improvement in technical capabilities over the GOES-I/M and GOES-N 
series satellites. GOES-R will enhance our ability to advance weather 
forecasting, storm detection, tracking, and warnings.
    The GOES-R Advanced Baseline Imager (ABI) will:

        <bullet>  Improve the current GOES geographic coverage rate by 
        five times. A GOES-R full-Earth disk (the Earth as seen from a 
        geosynchronous orbiting satellite) can be imaged in five 
        minutes, compared to a 26 minute duration for the current GOES-
        I/M and GOES-N Series Imagers. This will improve the timeliness 
        of the data being used for weather detection and forecasting.

        <bullet>  For regions facing severe weather, new images of key 
        areas will be available every 30 seconds, as opposed to four 
        minutes, 43 seconds with the current GOES rapid scan 
        operations. This will improve not only the timeliness of the 
        data for areas being impacted by severe weather, but also the 
        fidelity of the data, which helps improve forecasting accuracy.

        <bullet>  Improve horizontal resolution by four times (0.5 km 
        resolution for GOES-R vs. one km for the current GOES for 
        visible wavelengths), which improves the accuracy of forecasts 
        and warnings.

        <bullet>  Increase spectral resolution by three times (16 GOES-
        R ABI channels vs. five channels for the current GOES imager) 
        which provides added information to support more accurate 
        forecasts.

    The GOES-R Geostationary Lighting Mapper (GLM) instrument is the 
first ever operational satellite lighting detection system aboard a 
geostationary satellite. The GLM detects severe weather by mapping both 
cloud to ground and cloud-to-cloud lighting strikes. Lightning activity 
causes $4 to $5 billion in losses each year in the civilian sector and 
lightning has consistently been one of the top three causes of weather-
related deaths in the country. It kills between 50 and 70 people each 
year and injures hundreds more. By having the GLM capability on GOES-R, 
NOAA will be able to provide more accurate severe weather warnings that 
save lives. In addition, research has shown that cloud-to-cloud 
lightning typically begins before cloud-to-ground lightning (which can 
be more dangerous) as severe weather systems first develop. Monitoring 
this information closely will allow for longer lead times for severe 
weather warnings.
    GOES-R will also carry solar/space monitoring instruments that will 
provide significantly improved images and detection of approaching 
space weather hazards. These space storms endanger billions of dollars 
worth of commercial and government satellite systems by causing power 
surges in sensitive electronics, which can impact system performance 
(e.g., degrade communication capabilities) or even end the life of the 
satellite. These storms also impact ground-based power grids. 
Geomagnetic storms caused by energetic streams of particles and fields 
that originate from the sun impact the Earth's magnetic field, interact 
with the long wires of the power grid, and cause electrical currents to 
flow in the grid. These currents cause imbalances in electrical 
equipment, reducing its performance and leading to dangerous 
overheating. The power grid operators respond to warning by modifying 
the way the power grid is operated in order to maintain adequate power 
quality for customers and reserve capacity to counteract the effects of 
space weather. With these solar/space monitoring instruments on GOES-R, 
NOAA's Space Weather Prediction Center will be able to significantly 
improve space weather forecasts for government and commercial satellite 
operators and for the communications and power generation industries.

Q1b.  What specific capabilities will we lose with the two satellites 
and the HES program?

A1b. Two satellites: No specific capabilities would be lost, but having 
two instead of four satellites means that the overall expected life of 
the series will be shorter.
    To meet the Nation's weather data needs, the GOES system requires 
two operational satellites and a spare satellite on-orbit at all times. 
Two GOES satellites in orbit, one in the East and one in the West are 
required to maintain visual coverage of the entire Nation and the 
adjacent ocean areas where weather activity, especially storms, often 
originates. A single GOES spacecraft cannot simultaneously monitor a 
hurricane in the Atlantic and wildfires in Southern California and can 
do neither mission while closely monitoring tornado and thunderstorm 
activity in Texas. Having only one operational GOES satellite would 
greatly hinder weather forecasting for the United States. To ensure 
this continuity, a backup GOES needs to be available on orbit in case 
one of the operational GOES fails.
    By the GOES-R system having only two satellites, rather than the 
originally planned four, the overall expected life of the series will 
be shorter, requiring a new series of satellites to be developed 
earlier. The originally planned GOES-R four-satellite constellation 
would be expected to provide coverage through 2036. The current two-
satellite GOES-R series constellation will provide coverage through 
2028.
    The GOES-R spacecraft and instrument contracts have options to 
support the acquisition of two additional satellites (GOES-T and GOES-
U) beyond the initial two satellites. The decision to exercise the 
contract options for the additional satellites will be addressed 
through the NOAA budget process. The initial GOES-R contract enables 
the purchasing of key parts for all four satellites as well as spares, 
which may eliminate some future costs associated with purchasing 
duplicates of parts in the future.
    Hyperspectral Environmental Suite (HES): From initial planning and 
development of HES, it became clear that HES would be a highly capable 
sensor, but very complex and expensive to develop. Although the HES 
capabilities (hyperspectral sounder and coastal waters imaging) would 
greatly improve NOAA's ability to characterize the atmosphere and the 
coastal environment, NOAA had to weigh the advantages of an improved 
sounder against the risk that the sensor development would delay the 
launch of the GOES-R series, creating risk to continuity of operations. 
After careful consideration by NOAA and its users, informed by 
independent assessment, the technical and cost risk associated with a 
complex new instrument was considered too high for an operational 
mission such as GOES-R. NOAA will continue to provide products similar 
to the sounding based products currently provided by the GOES-N Series 
sounder with data from the Advanced Baseline Imager (ABI) instrument.
    The HES had promised the ability to measure fine disturbances in 
the atmosphere that can occur hours before severe storms develop. These 
measurements could have extended the lead times for severe weather 
warnings. The HES also could have provided fine scale observations of 
the oceans and coastal waters allowing coastal zone managers to monitor 
changes in the surface of those environments.
    The restructure of the GOES-R architecture allowed NOAA to ensure 
uninterrupted GOES data availability while incrementally achieving 
technological advances.

Q1c.  How will the additional delay impact costs and satellite 
services?

A1c. With respect to costs, the projected life cycle costs of $7.7 
billion for the GOES-R system has remained constant through the last 
two Administration budget requests. The additional schedule delay 
reduces the probability of having two operational satellites in orbit 
in April 2015 by a few percent. The GOES-R program is monitoring this 
risk closely.

Q1d.  Please expound on the potential gap in service coverage as 
identified by GAO.

A1d. To meet the Nation's weather data needs, the GOES system requires 
two operational satellites and a spare satellite on-orbit at all times. 
Two GOES satellites in orbit, one in the East and one in the West are 
required to maintain visual coverage of the entire Nation and the 
adjacent ocean areas where severe weather activity, especially storms, 
often originates. A single GOES spacecraft cannot simultaneously 
monitor a hurricane in the Atlantic and wildfires in Southern 
California and can do neither mission while closely monitoring tornado 
and thunderstorm activity in Texas. Having only one operational GOES 
satellite would greatly hinder weather forecasting for the United 
States. To ensure this continuity, a backup GOES needs to be available 
on orbit in case one of the operational GOES fails.
    In April 2015 when the first GOES-R satellite is scheduled to 
launch, internal projections indicate a 65 percent probability that 
NOAA will have both a GOES-West and GOES-East satellite in operations. 
Both NOAA and GAO have noted this as a concern since a 35 percent risk 
of only one operational GOES at that time could put forecasts at risk.
    To mitigate this risk, NOAA is planning ahead to maximize the use 
and lifetime of all existing NOAA GOES satellites by carefully 
monitoring the performance of GOES-14 and GOES-P (once on orbit as 
GOES-15). As a further risk reduction measure, NOAA has in place 
existing agreements with European and Japanese governments that also 
operate GOES-type satellites. If necessary, NOAA would borrow or 
request re-positioning of one or more foreign satellites, contingent on 
availability, to assist NOAA in meeting U.S. data needs.

Q2.  During the hearing, Mr. Morrow described his perspectives on 
funding project contracts. Please discuss any of your own lessons 
learned from the contracting process thus far. What are the appropriate 
occasions for fixed-price contracting versus cost-plus?

A2. In general, a fixed price contract provides for a set price for 
goods or services including profit. A cost plus contract provides for 
the reimbursement of the contractor's costs and an amount of fees. For 
both types of contracts, the profit and fees can vary. The principal 
determinate for picking fixed price or cost plus is the customer's 
ability to specify what goods and services are required and what level 
of risk will be involved in delivering the goods and services.
    If the customer can describe the goods or services required with 
sufficient implementation detail to allow a good estimate of the effort 
and materials required and their costs, and there is little technology, 
schedule, or other risk involved in accomplishing the effort, then a 
fixed price contract is the best option. A good example of an 
appropriate fixed price contract is a later satellite in a series with 
limited changes from the early satellites and where the risks of 
manufacturing are very well known based on prior experience.
    However, if there are substantial uncertainties associated with the 
effort related to development and engineering issues, availability of 
properly skilled and experienced staff, and schedule challenges, then a 
cost-plus contract is more appropriate. A good example of this is the 
development of a new satellite or ground system like GOES-R. The 
uncertainties and risks related to engineering and schedule translate 
into uncertainties and risks associated with the budget that both 
government and contractor are willing to commit to the contract.
    The cost-plus contracts NOAA has in place, through ongoing 
partnership with NASA, have been effective contract vehicles to work 
through the design of the GOES-R instruments to date.

Question submitted by Representative Vernon J. Ehlers

Q1.  Please provide a chronology of the changes in the GOES-R program 
over the last two to three years including a rationale for the changes 
that were made.

A1. The following is a chronology of the changes to the GOES-R Program 
from January 2004 to the present.

    FY 2004 (January 2004-October 2004): NOAA developed the first 
working estimate for GOES-R of $6.2 billion.

        <bullet>  Estimate was derived from 11 concept studies, 
        including architecture options that ranged in size from three 
        to nine spacecraft.

        <bullet>  Cost estimate was used at the beginning of the 
        Program Definition and Risk Reduction (PDRR) phase of the 
        program.

    FY 2006 to FY 2007 (October 2005-April 2007): Program Definition 
and Risk Reduction (PDRR) Phase, consisting of three firm-fixed-price 
contracts to three different contractors.
    The GOES-R PDRR phase included the following steps:

        <bullet>  Defined an end-to-end system architecture, including 
        more detailed concept designs and cost estimates.

        <bullet>  Conducted system and subsystem level trade studies to 
        identify and mitigate risk.

        <bullet>  PDRR ended with each contractor presenting a System 
        Concept Review (SCR).

        <bullet>  Based on the information in the SCR, NOAA developed 
        the second working cost estimate of $6.96 billion, which 
        consisted of two satellites and the removal of the 
        Hyperspectral Environmental Suite (HES). Internal studies 
        concluded that the HES instrument (including hyperspectral 
        sounder and coastal waters imaging) was too technologically 
        challenging to build within the available budget and schedule. 
        NOAA demanifested the HES from GOES-R.

    FY 2007 to FY 2008 (May 2007-December 2007): NOAA acquisition 
planning period.

        <bullet>  June 2007: The NOAA/NASA Memorandum of Agreement for 
        management and acquisition of the GOES-R system was signed.

        <bullet>  Based on the recommendations of a high-level 
        Independent Review Team (IRT), NOAA changed the management and 
        contract structure from a single prime contract to separate 
        space and ground systems contracts with the government 
        responsible for systems engineering and integration of the 
        system.

        <bullet>  December 2007: The Under Secretary of Commerce for 
        Oceans and Atmosphere certified readiness to proceed into the 
        acquisition and operations phase of the program. The components 
        of the program approved included:

                  The $7.58 billion budget;

                  The two-contract acquisition strategy: NASA 
                responsible for space segment and NOAA responsible for 
                the ground segment and operations; and

                  Deliverables consisting of two spacecraft with an 
                option for two additional spacecraft.

    FY 2008 Omnibus Appropriations Act--Reduced funding for the program 
by $44 million.

        <bullet>  Funding reduction forced an adjustment to the 
        acquisition schedule.

        <bullet>  Launch readiness date changed from December 2014 to 
        April 2015.

    FY 2009 President's Budget request based on $7.67 billion cost 
estimate.

        <bullet>  Spacecraft program provides two spacecraft with an 
        option for two additional spacecraft, which are unfunded.

        <bullet>  NOAA developed a program office cost estimate, 
        conducted an independent cost estimate, and resolved 
        differences between the two cost estimates. The resulting 
        budget and schedule was at the 80 percent confidence level (to 
        allow for sufficient reserves to address potential technical 
        problems during development, per the recommendation of the 
        IRT).

        <bullet>  October 2008: Pursuant to Public Law 110-161, the 
        Under Secretary of Commerce for Oceans and Atmosphere certified 
        readiness to Congress to proceed into the acquisition and 
        operations phase of the program. The components of the program 
        approved included:

                  The $7.67 billion budget;

                  The two-contract acquisition strategy: NASA 
                responsible for space segment and NOAA responsible for 
                the ground segment and operations; and

                  Deliverables consisting of two spacecraft with an 
                option for two additional spacecraft.

    FY 2010 President's Budget request retained the $7.67 billion cost 
estimate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by George W. Morrow, Jr., Director, Flight Projects, Goddard 
        Space Flight Center, National Aeronautics and Space 
        Administration (NASA)

Question submitted by Chairman Brian Baird

Q1.  During the hearing, we discussed the importance of identifying a 
monetary value of the GOES-R Program in light of the substantial cost 
to the taxpayer. Please provide these analyses of economic impact that 
the GOES-R capabilities will provide.

A1. NASA and NOAA share a 39-year partnership designing, developing and 
launching the GOES and Polar Operational Environmental Satellite 
series. While NASA is implementing the flight segment of the GOES-R 
Program, program responsibility resides with NOAA. This question is 
best answered by NOAA in their role as the program manager.

Questions submitted by Representative Donna F. Edwards

Q1.  In response to the program difficulties as identified in the 2006 
GAO report, including a near doubling of projected program costs, NOAA 
made several key changes to the program as a whole. The newest GAO 
report identifies several improvements since that time, but NOAA also 
eliminated two satellites and the Hyperspectral Suite (HES) program and 
pushed back the first launch date to December 2014. What are the key 
improved capabilities the GOES-R program has with the reduced system? 
What specific capabilities will we lose with the two satellites and the 
HES program? How will the additional delay impact costs and satellite 
services? Please expound upon the potential gap in service coverage as 
identified by GAO.

A1. NASA and NOAA share a 39-year partnership designing, developing and 
launching the GOES and Polar Operational Environmental Satellite 
series. While NASA is implementing the flight segment of the GOES-R 
Program, program responsibility resides with NOAA. This question is 
best answered by NOAA in their role as the program manager.

Q2.  During the hearing, Ms. Kicza described NOAA's progress toward 
implementation of GAO's three major recommendations for GOES-R. Please 
explain how NASA is approaching these goals and what progress has been 
made so far at reaching them.

A2. GAO Recommendation (1): As part of any effort to re-baseline the 
cost and schedule of the Advanced Baseline Imager, perform an 
integrated baseline review and ensure the review includes an assessment 
of key schedule milestones, the adequacy of resources, task and 
technical planning, and management processes.
    NASA expects to complete the re-baselining of the ABI instrument 
contract later this year. As part of that re-baseline activity, we will 
conduct a comprehensive Integrated Baseline Review (IBR). The ABI 
contractor is currently updating their new program management baseline. 
Once that is complete, NASA and NOAA will conduct the IBR.
    GAO Recommendation (2): Improve the agency's ability to oversee 
contractor performance by ensuring the reasons for cost and schedule 
variances are fully disclosed and documented.
    All five NASA GOES-R instrument contractors submit monthly Cost 
Performance Reports that includes cost and schedule earned value 
metrics and the itemization of all related variances. These cost 
variances are reviewed by both NASA and NOAA personnel within the GOES-
R program office on a monthly basis to ensure that the cost and 
schedule variances reported by the contractor are fully understood. All 
cost and schedule metrics, variances, impacts and mitigation plans (as 
appropriate) are reported on a monthly basis to the GOES-R program, 
NASA Goddard Space Flight Center staff, as well as NOAA and the 
Department of Commerce. Once the spacecraft contract is awarded, 
identical cost and schedule reporting processes will be utilized for 
reporting and documentation.
    GAO Recommendation (3): If feasible and justified, develop a plan 
and timeline of recovering the advanced capabilities that were removed 
from the program when the Hyperspectral Environmental Suite was 
canceled.
    As NOAA's flight hardware implementing partner, NASA continues to 
provide NOAA with the requisite engineering support necessary to 
evaluate options. In the event that NOAA elects to pursue an advanced 
sounding instrument to meet their user needs, then NASA will ensure 
that the proper systems engineering is performed to ensure GOES-R 
mission success.

                                   

</pre></body></html>
